<html>
<title> - [H.A.S.C. No. 111-17]SEXUAL ASSAULT IN THE MILITARY: PREVENTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 111-17]

               SEXUAL ASSAULT IN THE MILITARY: PREVENTION

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 6, 2009



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
52-186                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                David Kildee, Professional Staff Member
               Jeanette James, Professional Staff Member
                     Rosellen Kim, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Friday, March 6, 2009, Sexual Assault in the Military: Prevention     1

Appendix:

Friday, March 6, 2009............................................    41
                              ----------                              

                         FRIDAY, MARCH 6, 2009
               SEXUAL ASSAULT IN THE MILITARY: PREVENTION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     3

                               WITNESSES

Bradley, Charlene M., Assistant Deputy for Force Management 
  Integration, Office of the Assistant Secretary of the Air Force 
  (Manpower and Reserve Affairs), United States Air Force........     8
Bruneau, Raymond N., Manager, Sexual Assault Prevention and 
  Response Program, United States Marine Corps...................     7
Collins, Carolyn R., Program Manager, Sexual Harassment and 
  Assault Response and Prevention (SHARP) Program, United States 
  Army...........................................................     4
Foubert, Dr. John D., Associate Professor and Program 
  Coordinator, College Student Development Master's Program, 
  Oklahoma State University......................................    28
Lee, David S., MPH, Director of Prevention Services, California 
  Coalition Against Sexual Assault (CALCASA).....................    30
Robertson, Katherine, LCSW, Deputy Manager, Counseling, Advocacy 
  and Prevention Program, Commander, Navy Installation Command, 
  United States Navy.............................................     6
Whitley, Dr. Kaye, Director, Sexual Assault Prevention and 
  Response Office (SAPRO), Department of Defense.................    26

                                APPENDIX

Prepared Statements:

    Bradley, Charlene M..........................................    81
    Bruneau, Raymond N...........................................    69
    Collins, Carolyn R...........................................    50
    Davis, Hon. Susan A..........................................    45
    Foubert, Dr. John D..........................................   115
    Lee, David S.................................................   123
    Robertson, Katherine.........................................    60
    Slaughter, Hon. Louise McIntosh, a Representative from New 
      York.......................................................    48
    Whitley, Dr. Kaye............................................    98
    Wilson, Hon. Joe.............................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Shea-Porter..............................................   132
    Mr. Wilson...................................................   131

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
               SEXUAL ASSAULT IN THE MILITARY: PREVENTION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                             Washington, DC, Friday, March 6, 2009.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good morning. The meeting will come to order.
    Today's hearing is the second of the series of hearings 
that our subcommittee will hold this year looking at sexual 
assault in the military.
    Sexual assault is a complex problem that does not lend 
itself to a single hearing. And today we continue our 
examination of sexual assault in the military by holding a 
series of hearings on individual subjects so that members and 
witnesses can have in-depth discussions about various issues to 
build towards a comprehensive understanding of the problem. 
This will guide our deliberations on what can and should be 
done next.
    The first hearing in this series looked at victim advocacy 
and support. And we heard from a former service member who had 
been sexually assaulted while in uniform, as well as from an 
impressive panel of service members whose job it is to assist 
victims following an assault.
    Today's hearing will look at current and planned Department 
of Defense (DOD) programs to prevent sexual assault. As I think 
today's witnesses will demonstrate, the Services have applied a 
high level of commitment, resources and expertise to prevention 
programs to educate service members and change cultural norms. 
Now we have to see just how effective these programs are at 
preventing assaults. The final hearing in this series, which we 
will hold later in the year, will examine how assaults are 
prosecuted by the military. This hearing will look at what 
programs the individual services and the Department as a whole 
have in place to prevent assaults from ever occurring.
    Prevention programs can take many forms. Some seek to 
prevent potential perpetrators from ever committing a sexual 
assault. Others, so-called bystander programs, aim to teach 
people how to spot potential sexual assaults so that they can 
intervene and prevent them. There are also programs that 
educate people on how to avoid placing themselves in vulnerable 
situations.
    We will hear from the Services about what prevention 
programs they have already implemented and what programs they 
are fielding now and what programs they have on the drawing 
board. And we will then get to hear what overarching guidance 
the Office of the Secretary of Defense (OSD) is providing the 
Services, as well as what outside experts think of all of these 
programs. We will also have the opportunity to hear how the 
Department of Defense's programs compare to other prevention 
programs outside the military.
    Just as we have a responsibility to ensure that victims of 
sexual assault receive all the support that can be provided 
following an attack, we also have an obligation to do all we 
can to prevent such attacks from ever taking place.
    The Department of Defense has made significant improvements 
in recent years. But the question we need to ask is, has enough 
been done?
    We have with us today each service's subject matter expert 
for sexual assault prevention. We have Ms. Carolyn Collins, 
Program Manager of the Army Sexual Harassment and Assault 
Response and Prevention (SHARP) Program; Mr. Raymond Bruneau, 
Manager of the Marine Corps Sexual Assault Prevention and 
Response Program; Ms. Katherine Robertson, Deputy Manager of 
the Navy's Counseling, Advocacy and Prevention Program; and 
from the Air Force, Ms. Charlene Bradley, Assistant Deputy for 
Force Management Integration.
    I want to thank you all for being here.
    Our second panel will include witnesses from the Department 
of Defense's Sexual Assault Prevention Response Office (SAPRO), 
Dr. Kaye Whitley, as well as two outside experts on sexual 
assault prevention; Dr. John Foubert of Oklahoma State 
University; and Mr. David Lee, Director of Prevention Services 
for the California Coalition Against Sexual Assault (CALCASA). 
And I will make more involved introductions before that panel 
testifies.
    I want to reiterate that the purpose of this hearing is to 
focuses on sexual assault prevention programs. Other issues 
will, of course, come up. But I would like to save in-depth 
conversations about those other subjects for our later hearing 
so that we can give each of the topics the attention and the 
discussion that they deserve today.
    Also joining us, I believe, is Mr. Michael Turner, who is 
not here yet. But I would ask unanimous consent that he be 
allowed to participate in the hearing, as well as another 
member or two who join us today.
    And now to dispense with some administrative business, I 
would ask unanimous consent that all of the witness testimony 
be entered into the record, as well as the written testimony 
from Ms. Louise Slaughter.
    [The prepared statement of Ms. Slaughter can be found in 
the Appendix on page 48.]
    Mrs. Davis. Thank you, once again, all of you, for being 
here today. And Mr. Wilson do you have any opening comments.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 45.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Thank you, Chairwoman Davis.
    Today's hearing is important because the key to eliminating 
sexual assault in the military is to prevent it.
    I welcome the members of our two panels, who I believe can 
provide useful insight into prevention programs. I sincerely 
appreciate the willingness of Dr. John Foubert and Mr. David 
Lee to join us to talk about strategies for combatting sexual 
assault based on their research and programs throughout the 
United States. I applaud the Department of Defense and the 
military services for recognizing the importance of prevention 
and for the steps they have taken to improve programs based on 
preventing this crime. With that said, we must not only be 
assured that the Department of Defense concentrates on programs 
to prevent sexual assault, but also the Department will spare 
nothing to provide victims of sexual assault with the services 
they need. We also must know that the Department will 
aggressively pursue and prosecute perpetrators of this heinous 
crime.
    Today I hope to hear from our witnesses how the Department 
and the military services are implementing the prevention 
aspect of the comprehensive policy for the prevention and 
response to sexual assaults. Congress mandated this policy 
through the work of this subcommittee in 2005. What policies 
and programs are working? How do you measure the program 
success? Where does the system fall short? Have you identified 
areas that need improvement? How can we help as a Member of 
Congress?
    And, indeed, I am very pleased to see all of the Services 
represented today. And I know that this, I think, will be a 
hearing which will indicate the extraordinary success and the 
sincere implementation efforts that you have made.
    It is clear that the Department and the military services 
have recognized the importance of partnering with nationally 
recognized civilian experts to identify best practices and find 
the right solutions to prevent this devastating crime. I 
commend the leadership for looking outside of their own 
organizations and for utilizing all available resources to 
protect the health and welfare of our service members. Our 
commitment to help you achieve this goal is unwavering.
    With that, I would like to thank our witnesses for 
participating in the hearing today. I look forward to your 
testimony.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 47.]
    Mrs. Davis. Great. Thank you, Mr. Wilson.
    And I know, with some of the presentations, we are going to 
see some video clips, and presenters will just introduce those 
as we move forward. And of course, as always, we are going to 
entertain a number of questions.
    And so if you can keep your remarks to the four or five 
minutes if you have to, that would be greatly appreciated. The 
other thing I might mention is I believe we are going to have a 
vote in just a few minutes, so we will get started, Ms. 
Collins, and then we may perhaps have a second presentation, 
and then we will have to break and come right back. But I 
believe it is only one vote at this time.
    Thank you.
    Ms. Collins, would you proceed.

   STATEMENT OF CAROLYN R. COLLINS, PROGRAM MANAGER, SEXUAL 
HARASSMENT AND ASSAULT RESPONSE AND PREVENTION (SHARP) PROGRAM, 
                       UNITED STATES ARMY

    Ms. Collins. Thank you, ma'am.
    Chairwoman Davis, Ranking Member Wilson, distinguished 
members of the committee, thank you for the opportunity to 
appear before you today and to discuss the Army's efforts to 
combat sexual assault. On behalf of the Secretary, the Chief of 
Staff and Lieutenant General Rochelle, the Deputy Chief of 
Staff, G-1, I am honored to be here today to reassure you that 
the Army considers sexual assault a very serious issue and to 
share with you the aggressive actions we are taking to 
eliminate this crime from our ranks.
    Behavior such as sexual assault violates the very essence 
of what it means to be a soldier. The Secretary and the Chief 
continue to reinforce the fact that American soldiers are 
members of a band of brothers and sisters bound together by 
common values that set them apart from the rest of society. 
Time and again our soldiers display acts of heroism to protect 
and save the lives of their fellow soldiers. Such acts are not 
uncommon, and they are expected of our soldiers when protecting 
their battle buddies both on and off the battlefield.
    It is within this context that we consider the crime of 
sexual assault to be incongruent with the Army's core values. 
We believe it is the duty of every soldier to intervene and 
stop incidents before they occur. Soldiers who fail to 
intervene and protect their fellow soldier from harassment or 
the risk of sexual assault have forsaken the warrior ethos to 
never leave a fallen comrade.
    The Army's goal remains unchanged: To eliminate sexual 
assault and harassment by creating a climate where the 
inappropriate behavior is not accepted. Creating and 
maintaining such a climate is the responsibility of every 
leader at every level throughout the Army.
    With the Secretary and Chief personally providing 
leadership support and guidance, we launched a comprehensive 
sexual assault campaign in September of 2008. The campaign 
centers on leaders establishing a positive command climate 
where soldiers understand and adhere to the Army's intent to 
prevent sexual assault. The campaign encourages soldiers to 
personally execute peer-to-peer intervention and to not 
tolerate behavior that could lead to sexual assault.
    The cornerstone of the Army's Sexual Assault Prevention 
Campaign is the ``I. A.M. Strong'' program, where the letters 
I, A, and M stand for intervene, act and motivate. Today, 
throughout the Army, leaders are implementing the ``I. A.M. 
Strong'' initiatives and motivating soldiers to proactively 
prevent sexual assault. ``I. A.M. Strong'' features soldiers as 
influential role models and provides peer-to-peer messages 
outlining the Army's intent for all its members to personally 
take action.
    The Secretary of the Army introduced the Sexual Assault 
Prevention Campaign and ``I. A.M. Strong'' during the Army 
Sexual Assault Prevention and Risk Reduction Training Summit on 
September 9, 2008. With over 250 attendees and nearly 70 
general officers in attendance, as well as subject matter 
experts, Representatives from Congress, DOD and our sister 
services, our commanders and our Sexual Assault Prevention 
Program managers down to the division level represented both 
active, National Guard, and Reserve commands, to include 
commands deployed from the U.S. Central Command (CENTCOM) area 
of operation.
    The summit served as a forum to launch the prevention 
campaign by providing training on best practices from across 
the Nation and the opportunity to develop their own commands' 
prevention plans in alignment with our overarching prevention 
strategy. Our campaign strategy, which is outlined in my 
written statement, consists of four overlapping phases that 
extend to 2013.
    The first phase initiated our aggressive prevention 
initiatives, which will be followed by the other phases we will 
build upon. The measurement of our strategy's success is to 
increase the soldiers' propensity to report this crime. This 
reporting will demonstrate their confidence in their command 
and their fellow soldiers and will allow the Army the ability 
to hold offenders accountable.
    Other key components of the prevention campaign include a 
comprehensive effort to improve our Army's investigation and 
prosecution of sexual assault. We have started several 
initiatives in our Criminal Investigation Command and Judge 
Advocate General's (JAG's) Corps, which will increase our 
ability and our expertise to investigate and prosecute sexual 
assault crimes. These initiatives include additional 
investigators and prosecutors at our busiest jurisdictions, 
resulting in a capacity similar to the civilian special victims 
units.
    And I would like to stop at this point to have an 
opportunity to have you see the video. We are just going to be 
showing the end of the video right now, the last couple minutes 
of it. But it will certainly address our prevention areas. And 
then we will stop to speak to the rest of the program quickly.
    Mrs. Davis. Okay. Thank you.
    [Video played.]
    Ms. Collins. With that, let me just conclude in saying 
that, although we are starting new prevention initiatives, 
refined prevention initiatives, and increasing those efforts, 
we continue to support and emphasize our response capabilities 
and services. We continue to fully resource the Army-wide 
Victim Advocacy Program (VAP) led by our sexual assault 
response coordinators who interact directly with our victims of 
sexual assault and other response agencies.
    The Army is committed to fully implementing new 
initiatives; assessing our efforts; sustaining and refining our 
comprehensive and effective Sexual Assault Prevention Campaign. 
The Army is one of our national treasures whose positive 
reputation is largely due to its values, warrior ethos and 
dedicated professionals. With the success of our ``I. A.M. 
Strong'' initiatives, our soldiers will set the standard of 
conduct with their peers, ensuring soldier safety within the 
Army.
    In closing, I thank you for the opportunity to appear 
before you today. Your continued support of the Army, our 
soldiers and families and your partnership in helping us 
address this important issue. I look forward to your questions.
    [The prepared statement of Ms. Collins can be found in the 
Appendix on page 50.]
    Mrs. Davis. Thank you.
    And Ms. Robertson, I think we have time to have your 
presentation.

    STATEMENT OF KATHERINE ROBERTSON, LCSW, DEPUTY MANAGER, 
 COUNSELING, ADVOCACY AND PREVENTION PROGRAM, COMMANDER, NAVY 
            INSTALLATION COMMAND, UNITED STATES NAVY

    Ms. Robertson. Chairwoman Davis, Ranking Member Wilson and 
members of the subcommittee, I appreciate the opportunity to 
share with you the Navy's efforts to prevent sexual assault. 
Thank you for your leadership in this vital issue.
    Sexual Assault Victim Intervention, SAVI, is one of the 
many critical programs servicing the fleet, fighter and family. 
Implementing the responsive SAVI program with an effective 
prevention strategy is a top priority for Navy leadership.
    Established in 1994, the Navy SAVI program served as a role 
model for the Department of Defense and provides a standardized 
comprehensive victim-sensitive system that deters and responds 
to sexual assaults. Prevention of sexual assaults, response for 
victims, and offender accountability are Navy priorities. 
Sexual assault is incompatible with our core values, our high 
standards of military professionalism and personal discipline.
    SAVI is well grounded with scientific knowledge and best 
practices in the civilian population. We incorporate new 
research in prevention methods all the time. SAVI prevention 
and awareness training aims to ensure that all personnel afloat 
and ashore know what constitutes sexual assault and sexual 
harassment, understand the meaning of consent, and know the 
reporting options of victims. Our curriculum has focused on 
risk reduction with the emphasis on the role played by alcohol 
that can lead to sexual assaults and the importance of watching 
out for your shipmate's safety.
    Annual training is designed to prevent sexual assault, 
reduce risk and is provided for all levels of leadership. We 
have best practices such as Liberty Call and Prevent that are 
focused for 18- to 26-year-olds on decision-making processes. 
SAVI is a command-led program. Commanders fill key SAVI 
positions with skilled personnel to ensure that we have trained 
victim advocates 24/7 to provide response on and off the 
installation and during deployment. All port visits require 
pre-briefings from the ship's leadership regarding expectations 
for behavior.
    How do we measure our prevention initiatives? We have 
multiple ways. We have Navy inspector general visits. Our 
accreditation process for our SAVI program all include focus 
groups with command, the fleet and our key stakeholders. We 
recently did a Navy-wide study, scientific study, the SAVI 
Quick Poll, in 2008 for leadership to gauge sailors' knowledge 
and perception of the Navy SAVI program and resources. Our 
Quick Poll results show increased awareness of the SAVI program 
to include restrictive reporting and services available to 
victims. We have positive trends and gains in awareness for all 
groups between 2004 and 2008 since we have been doing the 
survey. Most importantly, there was a significant increase in 
the number of sailors who indicated that they would report a 
sexual assault to Navy authorities, which is very important to 
us.
    Increasing prevention and awareness with a strong messaging 
campaign is a major focus. We have done multiple public service 
announcements to include one with the Secretary of the Navy, 
another one focusing on bystander intervention and restrictive 
reporting. Today you will see a movie, an award winning movie, 
``Megan's Story,'' which we released and is used in all of our 
annual training.
    Navy commanding officers are charged with providing the 
safest possible physical and emotional environment for sailors 
to establish a command climate of respect. We are planning to 
conduct a Department of Navy senior leadership and key 
stakeholder summit this year as a part of a comprehensive 
sexual assault prevention strategy. We thank you for your 
leadership in this issue. We are committed to implementing our 
enhanced prevention strategy in the Navy in alignment with the 
OSD prevention policy. We want to address culture change.
    And we thank you again for this opportunity. I look forward 
to showing you ``Megan's Story'' and answering your questions.
    [The prepared statement of Ms. Robertson can be found in 
the Appendix on page 60.]
    Mrs. Davis. Thank you. I think we have time. It is about 
two and a half to three minutes.
    Ms. Robertson. It is three minutes.
    [Video played.]
    Mrs. Davis. Thank you. We will be back in just a few 
minutes, about 10 minutes or so. Thank you very much.
    [Recess.]
    Mrs. Davis. Okay.
    Thank you all for waiting. We are going to proceed.
    Mr. Bruneau.

   STATEMENT OF RAYMOND N. BRUNEAU, MANAGER, SEXUAL ASSAULT 
  PREVENTION AND RESPONSE PROGRAM, UNITED STATES MARINE CORPS

    Mr. Bruneau. Good morning Chairwoman Davis, Ranking Member 
Wilson, and members and guests of the subcommittee. Thank you 
for your continuing support for Marines and their families.
    Sexual Assault Prevention and Response is a very serious 
matter. As the Marine Corps continues its efforts to prevent 
sexual assault, directly care for our victims, and ensure 
offenders are held accountable, we appreciate your unfailing 
support in efforts to raise awareness of this important issue.
    People are our most important resource. Marines have a long 
history of taking care of their own, which means that we do not 
intentionally harm one another, nor do we leave a comrade 
behind. Victims of sexual assault are entitled to our support 
and care and deserve to be returned to the fight as fully 
functioning Marines.
    The Marine Corps is committed as always to caring for its 
own because it is the right thing to do. The Marine Corps has 
worked diligently to stand up and evolve this program through 
lessons learned and through collaboration with our sister 
services in the Office of Secretary of Defense.
    During 2009-2010, we are additionally committed to 
prevention-oriented program improvements, including hiring 
full-time program coordinators at the regional level; 
leveraging technology to make better use of available training 
platforms; implementing the Department of Defense's prevention 
strategy, which we strongly believe supports our core values of 
honor, courage and commitment; and in concert with a parent 
service or a parent department, the Department of the Navy, 
examining all functional areas of this program in-depth.
    And in closing, Madam Chairwoman, I would like to thank you 
again for spotlighting an issue which is not only important to 
us as a military service but is important to our society as a 
whole.
    Thank you.
    [The prepared statement of Mr. Bruneau can be found in the 
Appendix on page 69.]
    Mrs. Davis. Thank you.
    Ms. Bradley.

 STATEMENT OF CHARLENE M. BRADLEY, ASSISTANT DEPUTY FOR FORCE 
 MANAGEMENT INTEGRATION, OFFICE OF THE ASSISTANT SECRETARY OF 
THE AIR FORCE (MANPOWER AND RESERVE AFFAIRS), UNITED STATES AIR 
                             FORCE

    Ms. Bradley. Chairwoman Davis, Ranking Member Wilson, and 
subcommittee members, it is a privilege to appear before you 
this morning to be the voice for a team of dedicated 
professionals who have worked enthusiastically since 2004.
    Prevention is a never-ending commitment. It requires 
consistent continuing education and training; continuing 
emphasis by leadership on standards and values; visible support 
for victims; and deterrence. In 2004, Air Force leadership 
directed an Air Force-wide assessment, and the resulting report 
shaped our entire approach to prevention.
    The most crucial finding was that we simply did not 
understand the realities of sexual assault. We recognized the 
immediate need for subject matter experts external to the Air 
Force to share their research and expertise to inform our 
efforts. Key things that we learned from them: First, the 
majority of assaults, both in the military and the general 
population, are committed by nonstrangers. Among these 
nonstranger assailants, there are those individuals who crossed 
the line into criminal behavior because of a one-time set of 
circumstances culminating in an assault.
    Second, there is also a very small percentage of men, 
serial sexual predators, who are responsible for a vastly 
disproportionate amount of the sexual violence in any 
community. They do significant damage. They premeditate their 
assaults and they get away with it because victims do not 
report.
    Finally, significant barriers exist to reporting, and some 
of those are unique to the military. Traditional prevention and 
risk-reduction programs focus on changing the behavior of the 
potential victim, primarily females, assuming that if they 
avoided unsafe situations, they would not be assaulted. Our 
approach to prevention and risk-reduction training also focuses 
on understanding how perpetrators behave and include sessions 
on making responsible choices, setting good boundaries, and 
developing good communication skills, as well as avoiding 
behaviors that can make a person vulnerable to a sexual 
assault.
    Commanders must create safe working environments, and they 
must establish and maintain a climate that doesn't tolerate 
disrespectful or inappropriate behavior.
    Our first prevention effort in 2005 focused on educating 
every Air Force member about the crime, debunking the myths and 
introducing a positive role airmen could take to prevent a 
sexual assault before it happened. The Air Force developed 
standardized training for schools and professional military 
education at all levels beginning with the sessions. About to 
be released is a module for predeployment covering those topics 
unique to the deployed environment. While the training is 
currently being presented at all these levels, we continue to 
develop standardized modules to enhance consistency of the 
training.
    Our current prevention initiative focuses on development of 
a Bystander Intervention Training Program. Bystander 
intervention is a strategy that motivates people who may see, 
hear or otherwise recognize signs of inappropriate or an unsafe 
situation to act in a positive prosocial manner. We and the 
experts believe the most effective prevention efforts must be 
focused on airmen who, by their participation in peer groups 
and activities, might either actively or passively provide 
support or camouflage for the sexual predators in their midst.
    To continue our prevention efforts, we are developing a 
long-term plan consistent with the recently released DOD 
Prevention Plan that will provide the continuing emphasis and 
attention to our ultimate goal, which is to create an 
environment and a culture where sexual assault does not occur.
    We work closely with Air National Guard, the Air Force 
Reserves, our sister services, the Joint Staff and the SAPRO 
staff. Secretary Michael Donnelly and General Norton Schwartz 
have specifically charged Air Force leaders with the 
responsibility to set and uphold the highest standards that 
will not tolerate sexual assault. We will continue to serve our 
airmen with the passion that they deserve.
    We particularly appreciate the opportunity to share our 
journey with you, and we appreciate the dedication that you 
have shown to this issue and to our airmen.
    The clip, ma'am, that we would like to show you is one of 
our standardized modules. In each one of our standardized 
training models, we are trying to insert something on bystander 
intervention. In addition to the broad training that we are 
about to put out, this particular excerpt will be shown to 
instructors who are trained at Basic Military Training (BMT) 
and at tech training schools to help them demonstrate the very 
fundamental behaviors that we want them to teach our airmen.
    [Video played.]
    [The prepared statement of Ms. Bradley can be found in the 
Appendix on page 81.]
    Mrs. Davis. I want to thank you for bringing the 
videotapes, because I think that is helpful to us to see, and 
we might have a chance to talk about them some as well.
    One of the questions, I think, that goes throughout your 
testimony and certainly is something that we understand and 
share when you talk about the fact that none of the service 
cultures tolerate sexual assault, but then we go on to talk 
about how we need to change the culture. And so I am wondering 
if you could help us understand better and kind of drill down 
on this, too, to look at, what of the military culture you 
think doesn't tolerate sexual assault and, in fact, what 
elements perhaps may enable it? And what is it that you are 
trying to get out specifically?
    I think we certainly have a sense of that. The bystander 
issue is one. But if you could all just think a little bit more 
about that and why that might not necessarily be in sync, 
because we certainly applaud your interest in trying to change 
the culture, and yet we applaud the values as well.
    Anybody want to start with that.
    Ms. Bradley. Ma'am, let me address it just a little bit, 
please.
    In society as a whole, there are behaviors that appear to 
be very normal. A young man, who, I mean the terminology is 
often used to scuttle out and have a hit or whatever. Those 
behaviors are not really as normal as they seem with certain 
individuals, with the serial predators that I talked about.
    I also mentioned there are occasions where young men step 
over that limit on a one-time occasion. But we are finding that 
we have a larger number than I would hope of young women who 
are coming into the service with prior assaults. National 
studies have been done that this is a tragedy of youth. So we 
have both that societal issue to deal with, and if you have, 
frankly, a serial sexual predator in your midst, they are going 
to use all the vulnerabilities they can. And when a lot of 
young women come into the military, they are looking for a 
home; they are looking for stability; they are looking for 
trust. And someone who is really going to use that can do so in 
a military environment.
    Ms. Collins. Ma'am, if I could. We just recently did focus 
groups with our young soldiers coming into the military as well 
within the first two weeks of them coming in. And what they 
expressed to us was they are, based on images and socially what 
they believe--do you need me a little closer? What they 
stressed to us is events or actions that they would not 
consider sexual assault outside the military, they are learning 
immediately they can be charged with inside the military. And 
so I think it is a cultural change where we have to address all 
the images and possibly 22 years of things that may have been 
socialized into them as acceptable and let them know 
immediately.
    That is why we are aggressively targeting our newest 
sessions with our training, that those actions, behaviors are 
not acceptable and will not be acceptable within the Army. And 
so I do believe it is the social aspect we have to get at that 
we are countering images all the time, advertisements, media 
that tells them certain actions may be acceptable, and we have 
to counter that message.
    Ms. Robertson. Madam Chairwoman, I would also like to talk 
a little bit about, we are, as we are talking about, a 
microcosm of society. So we do have people enter the service 
that have had a history of assault, as Charlene was referring 
to. And so we want to make it a safe place.
    But the people who have been victims in the past are 
usually the most easily targeted in the future. We want to 
recognize and provide a safe environment. We want to focus on 
risk reduction. We want to make sure that we are not doing 
victim blaming. We want to make sure that we utilize bystander 
intervention and other methods so that it is not always on the 
female to watch all their actions and to try to be safe.
    So we are all using the civilian experts. We are using what 
we see in society to really make a difference. And as Carolyn 
is talking about, we are holding them to a standard that might 
not be as high as what they are used to before they are getting 
in.
    We really are focusing on offender accountability. We want 
to get the message out, as in our ``Megan's Story'' and in all 
the training that we are doing, that we are going to hold 
offenders accountable. So we really take this very seriously. 
We want to make a difference.
    Mr. Bruneau. Thank you, Madam Chairwoman.
    The fact is that most Marines, the vast majority of Marines 
do not commit this crime.
    As Ms. Bradley said, predators do exist. They constitute a 
very small percentage of those whom we receive in from the 
civilian sector. However, they know what they are doing. They 
know how to pick a victim. They know how to groom a victim, and 
they know how to make their premeditation succeed with not 
necessarily--not tacit support, but inaction.
    That is why the focus of our prevention strategy on 
bystander intervention is so important. It is as important for 
us to educate our Marines how to recognize inappropriate 
behavior and risk-laden scenarios and how to give them the 
tools to react appropriately to prevent a crime from occurring 
in the first place.
    Mrs. Davis. My time is up. And we will have some more 
rounds.
    Mr. Wilson.
    Mr. Wilson. Thank you, Chairwoman.
    And as a 31-year veteran of the Army, as the father of four 
sons currently serving in the U.S. military, I agree with Ms. 
Collins. And that is that sexual assault violates the essence 
of being a soldier.
    I also want to thank you for the video on Army values. I 
wish more people in our country knew of the Army values. These 
are the values that all of us should live by. In particular, 
strong bonds of trust is the culture of America's military. So 
what you are doing is so crucial.
    And Mr. Bruneau, I particularly want to cite the Marine 
Corps. I am very grateful. All female Marines in the world have 
been trained at Parris Island, South Carolina, which I am very 
grateful to represent. And so when I meet female Marines 
anywhere in the world, I immediately have a strong bond and 
appreciation of their service.
    And whoever would like to answer this. Your written 
statements and your testimony this morning clearly show that 
each military service has undertaken a huge resource-intensive 
effort to combat sexual assault. What are your thoughts about 
how effective your programs are? How do you plan to measure 
whether your programs are effective?
    Ms. Collins. Sir, I can go ahead and start to answer that 
question for you.
    We did a full assessment of our program last year. We stood 
up in a General Officer Steering Committee and did a full 
assessment of the program after our annual report came out 
because we were still experiencing assaults within the Army, so 
we were not to the point where we wanted to be as a service. 
With that full assessment, we revised our prevention efforts 
and released our new strategy and campaign in September. And 
with that, every piece of our strategy across our campaign has 
measurement tools for each phase and including building up the 
propensity to report and bringing down the number of assaults. 
Each action we are rolling out within our strategy, all of our 
education efforts and prevention efforts have, metrics built 
into them, because we do want to continue to assess ourselves 
and refine our efforts with this effort.
    Bystander intervention is a relatively new form of doing 
so, and with those efforts, we want to make sure that we are 
getting the results we want with our training and that our 
assaults are being eliminated within the military.
    Mr. Wilson. And how specifically do you judge 
effectiveness?
    Ms. Collins. Specifically on the training, sir? We also 
will be doing annual surveys with our soldiers to determine 
their propensity to report, how many assaults have occurred 
that we do not know about that may not have been reported 
within the last year. But we certainly are looking at, not only 
the different tools, but there is a synergy of the prevention 
efforts that are going to go on. So we want to see which are 
having the most effect with our soldiers, which messages speak 
to them the strongest and are influencing their behaviors.
    Mr. Wilson. Would anybody else like to cite their programs 
and effectiveness?
    Ms. Robertson. I will sir. I, too, am a family member. I 
have two sons in the military; one in Djibouti serving right 
now, and one getting ready to deploy to Afghanistan in the 
Army. So I understand the military values, so I am really proud 
to be here and talk about this program and take it as a 
personal interest.
    For the Navy, we do Navy inspector general (IG) visits 
every region, every site, to look at the programs. In Sexual 
Assault Victim Intervention, our SAVI program, we do focus 
groups. We really look at, what are they aware of? What is out 
there? Are we reporting effectively? We had a Navy IG study in 
2004 that showed lots of areas we needed to improve. But the 
good news is we have made all those improvements with the 
changes in the DOD policy, increased staffing, new training, 
emphasis on training using civilian experts. We have vetted our 
curriculum with the national civilian experts Pennsylvania 
Coalition Against Rape (PCAR) and National Organization for 
Victim Assistance (NOVA). We continue to evolve and change and 
improve our processes.
    We also have an accreditation program that goes out and 
interviews the fleet, the commanders, our key stakeholders; 
medical, legal, Naval Criminal Investigative Service (NCIS), 
and looks at our program to make sure that we are meeting all 
the policy requirements. And then, as I talked about quickly, 
was the SAVI Quick Poll which we did in 2004, 2005 and 2008, 
which really is a measurement of awareness of the program, of 
the resources, and if victims would feel comfortable reporting 
their sexual assault. And our 2008 poll was very gratifying. We 
are getting the word out. They are getting the message. We are 
focusing again on our recruit command on our 18- to 26-year-
olds. We have a lot of products out about decision-making 
processes and will continue to improve and focus on bystander 
intervention.
    Mr. Wilson. And I am particularly interested in 
measurements. And so I would be very interested to receive a 
copy of the information and the polling that you just 
indicated. If you could provide that to us.
    Ms. Robertson. I will take that for the record and be glad 
to do that.
    [The information referred to can be found in the Appendix 
on page 131.]
    Mr. Wilson. And thank you for your family's service.
    Mrs. Davis. Thank you.
    Did anybody else want to comment on that briefly or perhaps 
you can in the next round with other speakers?
    Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Yes. Thank you very much for your testimony.
    I have a question to address sort of the underlying 
cultural issues that you have all referred to. When the Air 
Force Academy first started to be aware of the issue of sexual 
assault in the academies, one of the things they found in the 
culture was that one out of five of their students, or their 
cadets, did not believe women should be in the military. Have 
you all examined that in the course of trying to deal with 
addressing the underlying culture of your services? I just 
wonder if there has been any research done on this or on the 
fundamental belief that women should be serving with men. Is 
that a no?
    Ms. Bradley. Ma'am, I have not, or our team has not taken 
that on specifically, but we are very aware of it, as is the 
Academy, and they work that those cultural issues about women 
are full up members of the team. Gender, race, anything like 
that should have no play in our effort together to be the 
defense for this Nation. We do know, as we have done in our 
training, that many of the things that cause this kind of 
behavior are disrespect for one another, are myths about women, 
about other races. And we are purposefully in all of our 
training addressing that about how women are treated, as the 
one that you just saw. You don't be disrespectful to someone on 
your team, regardless of who they are. So we are definitely 
aware of it, and we are including it in every piece of training 
we have.
    Ms. Tsongas. As a part of the change in the culture?
    Ms. Bradley. Yes, ma'am.
    Ms. Tsongas. Is that true across the board?
    The other issue I wanted to address is the issue of 
bystander. And I applaud you for your efforts around that. But 
one of the concerns I have is how the command structure 
embraces all the good work that you are doing and to the extent 
that there are issues with commanders not being fully endorsing 
of all the work that you are doing; in essence, they become the 
ultimate bystander. So I am curious as to how you manage to 
work from the top down to be sure that every element of the 
Services endorses the fact that they have an important role to 
play as a bystander, whether or not it is stopping a specific 
act that may be in progress or potentially in progress, but at 
the very top creating a culture that says none of us are going 
to be indifferent to this?
    Ms. Bradley. In the Bystander Intervention Training that I 
mentioned that we have recently developed, there are three 
phases, and one is specifically for leaders. Our deputy chief 
of staff of personnel in fact is going to receive that training 
the middle of this month before it goes out, but training that 
specifically leaders take to show how they must intervene in 
circumstances.
    But part of the basic is getting people to understand the 
dynamics of sexual assault, the complexities of it, and the 
behaviors that are associated with it. So we will have training 
for leaders, training for men, and training for women in the 
bystander intervention.
    Ms. Tsongas. Is there any work being done in the 
coursework, the kinds of courses people take in the course of 
their professional progress, the War Colleges? Is there any 
kind of training going on there for the leaders in the making?
    Ms. Collins. Ma'am, if I may.
    The Army implemented training from basic training to our 
general officer level back in November of 2004. And we have 
revised that once, and we are on our second revision of that 
training right now. So as you go up in leadership roles and go 
to higher leadership schools, you get sequential training on 
your requirements under the program.
    With the launch of our summit this last September, that 
launched our first phase which is titled Committed Army 
Leadership, and the Secretary and Chief were extensive in the 
direction with all commanders that they will be highly engaged 
with this program. Our commanders left that summit with their 
own action plan to immediately implement when they got back to 
their command areas, and they began in implementation, which we 
will be briefing out during our next summit, which is in early 
April this year.
    Ms. Tsongas. Thank you.
    Ms. Robertson. Ma'am, I would like to tell you that the 
Navy also has different levels of training, and we have 
specific leadership training. At the Senior Enlisted Academy 
this last year, we gave them real-life case scenarios for 
discussion so that they could really look at what went well, 
what didn't go well, what are the system issues. And so we take 
it very seriously that each level of leadership needs a 
different type of training to focus on what their position is 
and to look at it a different way. So I commend you for your 
comment and question because it is important that we address 
this training at all different levels.
    Ms. Tsongas. Thank you.
    I don't know what my time is, but thank you.
    Mrs. Davis. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    This question is for each one of you. And I have been very 
concerned about the high rate of moral waivers that have been 
given to entrants, in particularly the Army, over the past few 
years. And my question is, although you don't work with that 
part, do you see any connection? Do you have any knowledge 
whatsoever of what number of men who have gotten moral waivers 
are actually causing trouble on bases? I have been concerned 
about that, and I can't get the information I need right now. 
So I just want to know how many people have received moral 
waivers, if you know. And if any of the moral misconduct, and I 
know some of it can be very small misdemeanor stuff, but if any 
of it has to do with sexual misconduct, do you know that at 
all?
    Let me start with Ms. Collins.
    Ms. Collins. Yes, ma'am. Thank you for the opportunity to 
address that issue.
    Our office does not track or do comparisons. That is not a 
regular, reoccurring requirement for our case data or our 
report requirements that we provide up through DOD or to our 
leadership.
    With the second part of your question, on offenders 
potentially coming into the military, previous offenders, we 
have policy in place that speaks to personnel recruitment 
issues and that recruiters cannot recruit individuals or 
provide waivers for an individual who has committed a violent 
sexual offense.
    Ms. Shea-Porter. Okay. So any recruits, potential recruits, 
who show up at a recruiting office and have had something in 
their past cannot enter the Army?
    Ms. Collins. Yes, ma'am. The policy states that they cannot 
be assessed into the military if they have a criminal history 
of sexual violence.
    Ms. Shea-Porter. And is each potential recruit's background 
searched for that?
    Ms. Collins. Yes, ma'am. We do do security checks on the 
background of our recruits.
    Ms. Shea-Porter. Okay. And, as far as you know, have there 
been any surprises, anybody who has slipped through that?
    Ms. Collins. Not to my knowledge, ma'am.
    Ms. Shea-Porter. Thank you.
    Ms. Robertson.
    Ms. Robertson. Thank you, ma'am. As Ms. Collins stated, 
this is a program not within our purview for my 
responsibilities, the SAVI program. I would be glad to take 
this for the record. It is under our personnel policy.
    But I will tell you that our policy does state that we will 
not recruit or admit any convicted sex offenders. So it is in 
our policy, has been in our policy for many years, but I would 
be glad to take the question for the record.
    [The information referred to can be found in the Appendix 
on page 132.]
    Ms. Shea-Porter. Okay, well, I appreciate that. But I guess 
what I am getting at is, are we finding all of them before they 
come in? Because I don't believe that just getting into the 
military turns you into that. I think they come into the 
military with those tendencies and that aggressiveness. And so 
I am wondering what we have in place to catch them beforehand. 
It is hard for me to believe they never exhibited that kind of 
behavior until they get in the Army or into the Air Force and 
suddenly you find out that you have one in the group.
    So what do we do to make sure we find them beforehand? 
Because we know that they may not have a criminal record, but 
what do we do to look in their background to see if they have 
had problems, if there have been any kinds of accusations? How 
good is the work to prevent them from entering, is what I am 
asking.
    Mrs. Davis. Ms. Shea-Porter, may I just add to your 
question? Because I think what we are also looking for, are our 
screening tools adequate?
    Do you feel that the work that you have done or the work of 
experts around the country have made a contribution to trying 
to have screening tools that actually provide us with the kind 
of information that might raise a red flag in some of those 
early efforts to talk to people about their entrance into the 
Services?
    Mr. Bruneau. Thank you, Congresswoman Shea-Porter. I 
appreciate the opportunity to talk to this.
    I am not in recruiting, I am not an expert on recruiting. 
But my understanding is that Marine recruiters routinely 
perform a local records check on all of their applicants. And 
Marine Corps policy and Marine Corps order specifically 
prohibits the enlistment or commissioning of a registered sex 
offender.
    The etymology of predation is such that the perpetrators of 
this crime do it until they get caught. So it is not certain 
that a background check or a records check is going to reveal 
someone who is a predator, because they may not have been 
caught yet.
    Ms. Bradley. Ma'am, we also have a policy that prohibits us 
from either enlisting or commissioning anyone into the service 
with a qualified conviction. And we have not issued any 
waivers.
    But your question is absolutely on-spot. Back in 2004, we 
had all of our vice commanders in from the major commands, and 
we invited Dr. David Lisak, who is an expert on sex offenders, 
to talk to them. And he was explaining to them how these folks 
operate. And they immediately said to him, ``Can you devise a 
screening tool for us so we never bring them in?'' And Dr. 
Lisak's response was, ``I cannot, because they look like you, 
they look like your son, they look like your cousin, they look 
like your grandson.''
    And it is very difficult, unless you are aware of this 
behavior and you can watch it over a certain amount of time, it 
is almost impossible to screen it. I wish we could. I sincerely 
wish that we could.
    Ms. Shea-Porter. Well, I will say that I have a feeling 
that, if you talk to the high school and maybe some of the 
young women who graduated with some of those people, you would 
get an idea about whether you had somebody who was pretty 
aggressive and inappropriate.
    There just seems to be missing from this discussion the 
sense that we have to find them before they show up. And the 
numbers are just appalling. For all of the efforts--and I 
commend you for your efforts; they are just wonderful--but for 
all of the efforts, it is still occurring. And the Army's rate 
actually looks like it has shot up some.
    So we have to look further back than from the day they show 
up at the recruiter's doorstep. I think it is essential. And, 
you know, how to do that, I think, is up to the experts there, 
but I am certain that there is something else to this equation 
here.
    Thank you all.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. Mr. Bruneau, I am going to direct my question 
to you, just in the interest of time, but I certainly could 
direct it to any of the rest of you.
    I wanted to ask about the overseas situation, particularly 
the Iraq and Afghanistan situation now. How well do you think 
we are doing, and how do you monitor the following items: the 
availability of immediate counseling after some kind of an 
event; the availability of emergency health care, including 
referrals for any follow-up treatment a person may need; the 
availability of forensics, of high-quality forensics material 
for obtaining samples; and the availability of prosecution and 
help with the movement of witnesses and so on because of the 
mobilized situation?
    How do you monitor all those things, and how do you think 
we are doing?
    Mr. Bruneau. Thank you, Congressman Snyder.
    Our program, as it is operated in deployed environments, is 
designed to replicate as nearly as it can the program that we 
use in the states and garrison, understanding that there are 
some differences and unique challenges that are inherent in the 
combat environment.
    As I understand it, you would like to have some idea of 
what we are doing to provide immediate counseling for victims, 
the availability of forensics, I guess you mean sexual assault 
examination kits, and emergency care in place, as well as 
investigation and prosecution. Am I on the mark there, sir?
    Dr. Snyder. It is not just the forensic kits, by the way. 
It is having professionals there that know that their medical 
notes better be legible, they better have an eye that whatever 
they say and do may have impact on a criminal case down the 
line. But, yes, that is the idea.
    Mr. Bruneau. Yes, sir. I would like to talk about the 
availability of forensics and sexual assault examination kits 
and that area first, if I may.
    Of course, for the Marine Corps, medicine is provided for 
us by the United States Navy. Each of the military treatment or 
the medical treatment facilities may not have a sexual assault 
examination kit on hand. If a victim presents and requests to 
have a kit performed, because it is at their option, then the 
responder, the health care provider at that military treatment 
facility will notify the Naval Criminal Investigative Service 
(NCIS). An agent will bring the kit to the military treatment 
facility.
    Any health care provider who is qualified to conduct a 
basic obstetrical-gynecology exam is qualified to conduct a 
sexual assault examination.
    Dr. Snyder. In the interest of time, I am going to 
interrupt you, if I might. I understand that. And what you are 
describing is what the situation is stateside also.
    My question is, how do you monitor? And what you just 
described, how available is that for the convenience of the men 
and women who may have been sexually assaulted? How do you 
monitor that?
    Mr. Bruneau. Sir, the kit enters the--it is inducted into 
the evidentiary stream, the chain of custody, according to the 
protocol that is published by the Bureau of Medicine and 
Surgery, as well as the Naval Criminal Investigative Service. 
There is a chain-of-custody form that is used, and the health 
care personnel are trained on how to properly complete that 
form.
    The kit is delivered by the NCIS agent. The examination is 
conducted, and the evidence that is collected is sealed per the 
protocol and returned to the NCIS agent, who then takes care of 
shipping it back to the States to the laboratory.
    Dr. Snyder. My time is about up. Maybe we should pursue 
this at another time.
    My question is, for example, right now, today, do we know, 
at Taji, do we know, are there kits there? Are they at Taji? If 
not, how long would it be? Time is a factor. You can't say, 
``Well, we will have one in two days.'' I assume we are talking 
about a matter of hours at the most that you would want time to 
go by.
    So how do you monitor whether those things are available or 
not in the overseas deployed situation?
    Mr. Bruneau. My understanding is that the kits are held by 
NCIS at the resident agency in Iraq. And the time factor is 
inherent to the combat environment. It is difficult to 
transport investigators to the victim, and it is difficult to 
transport victims back to where service may be provided.
    Dr. Snyder. Ms. Robertson, I wanted to ask you a question. 
If somebody believes that they had been sexually assaulted and 
reported it both to the civilian and military world, because 
the alleged perpetrator was somebody in the Navy, but were not 
satisfied with how the case was pursued, what are their 
options?
    Ms. Robertson. Thank you for your question.
    We have many options. For one thing, for victims of sexual 
assault, for all unrestricted cases, anyone who has pursued and 
involves an investigation, we have a monthly sexual assault 
case management group that includes legal, naval, criminal, 
NCIS, medical, chaplains, counselors, our sexual assault 
response coordinator, and a victim advocate.
    One of the main purposes of this group is to make sure that 
the victim is getting the care that they need, the victim is 
being heard. The victim advocate and the command representative 
represent that victim at the meeting to make sure that we have 
that full, multidisciplinary discussion.
    Anyone, at any time, could call the Navy Inspector General 
(IG). We have many avenues for a victim to let us know that 
they are not getting the help they need or they are not happy 
with the service they are getting. And we have to respond to 
that. When we do our Navy IG visits, we have findings that we 
have to respond to.
    So we have many systems in place to make sure that--victim 
care is our number-one priority, response to victims. So it is 
irregardless of where it happens, location, we want to make 
sure that the victims are taken care of.
    Dr. Snyder. Thank you.
    Mrs. Davis. Mr. Loebsack.
    Mr. Loebsack. Thank you, Madam Chair.
    I do have a question, but I think, at this point, if it is 
okay, I would like to yield to our colleague, Mrs. Capps from 
California. Is that okay, Madam Chair?
    Mrs. Davis. That is okay, sir.
    We have been joined by Mrs. Lois Capps from California, who 
is very interested in this subject.
    Mrs. Capps. Thank you. I also don't want to take time from 
Mr. Loebsack, but if I could use a couple of minutes mostly to 
thank this committee for holding these hearings. I understand 
this is the second of three hearings on the topic, and I think 
it is very appropriate.
    I am on a different committee, but this topic has been of 
great interest to our bipartisan Caucus for Women's Issues. 
And, over the years, this topic has come up, as different 
members on this committee who are part of our caucus have 
brought the issue forward.
    I am very heartened by the fact that branches of the 
service are reaching to us to help, perhaps, provide resources, 
but at least provide the setting of a hearing.
    And I can now address you more in my background as a former 
school nurse in a public health capacity in my community. 
Working with high school students, these are the young people 
who then appear at the recruiter's office. And we can't 
detect--I mean, this is a challenge for us, starting with young 
kids and working with families to support a topic that is so 
very important as they raise their children who will then 
become adults in whatever capacity.
    And, as they join the military, this is one of many areas 
of very major concern, particularly now in Iraq and 
Afghanistan, as we see so many women joining in, which we 
believe they should, with their male counterparts in combat. 
The stressors, I believe, probably, although I am not an expert 
on this, only increase the tensions and the pressures.
    So, in many respects, I guess I would say, first of all, 
this is the kind of dialogue I hope that we can continue in 
Congress. And if there is any way--I am no longer Co-Chair of 
the Women's Caucus, but many of us outside the Armed Services 
Committee are very interested in making sure that this is 
something--it is a burden, in a way, and a responsibility that 
you are carrying, but you are, in a way, carrying it on behalf 
of all of us.
    You are at the point in your work, in the line of your 
mission, where we are asking you to be leaders and to work with 
the lay community, civilians, to address an issue that faces 
every family in every community, every law enforcement, every 
aspect of our society, and yet it is in this very intense 
setting with hierarchies and with orders to follow and with 
missions to carry out. We must share the responsibility with 
you, as a civil society, and yet we do expect a great deal from 
you, as our most precious resources, our sons and daughters, 
are entrusted to your care.
    So I don't really have a question to ask you, but if you 
want to respond in some way, you know, perhaps even to say to 
our public schools, ``What are you doing to help us? Because we 
are working with you, and you with us, to prepare the 
generations that are called upon in ways, you know, that maybe 
previous generations have not experienced in quite that same 
way.''
    So I am here to salute the committee, first and foremost, 
and to say I think this is a very, very significant set of 
hearings that you are conducting. And I am very mindful that 
there is a larger role that the military is representing that I 
want to make sure we all carry our share of responsibility for. 
So thank you very much.
    I will be happy to hear--although you may want to move on 
with the hearing, too, Madam Chair.
    Mr. Loebsack. No, I would like to hear any response, as 
well. Thank you. Thank you, Mrs. Capps.
    Ms. Collins. Ma'am, if I may, I would like to answer your 
question or at least give you an idea of what the Army is 
working with, as well as with DOD and our sister services.
    We are working with the Department of Education, Health and 
Human Services, Centers for Disease Control, and others, 
Department of Justice, as we work through our efforts. We are 
working with our schoolhouses that we are engaged with with the 
military, down to the junior Reserve Officers' Training Corps 
(ROTC) level, as well as our ROTC programs throughout the 
colleges, with this program.
    And we are introducing training that will assess attitudes 
and behaviors before individuals take our training. And then, 
after they take the training, we know where we would like to 
take them, again, back to that bond of core values that the 
Army has that they expect their individuals--all of our 
individuals to have. And, as Ranking Member Wilson said, you 
know, that the broader spectrum, he would like everyone to look 
at this issue in.
    So, for us, it is a partnership with not only our national 
experts but our national agencies, as well, as we address this 
social problem. And we are going to have those individuals with 
our summit, as well as our sister services and DOD. And the 
Sexual Assault Advisory Council DOD holds has those members on 
it as well, and we all participate in working groups with them.
    Mrs. Davis. I am going to turn to Mr. Murphy because we are 
going to be pushed here in terms of time.
    Mr. Murphy.
    And then after Mr. Murphy, let's see, we have Ms. Sanchez. 
I guess that is it, and we will try and wrap up this panel and 
go to the next one. I had hoped that we would have another 
round, but I think that we have had a chance to have a larger 
group here today, and that is a good thing.
    So, thank you.
    Mr. Murphy. Thanks, Chairwoman Davis. I appreciate it.
    Thank you so much for all your testimony and especially for 
that video, which was terrific.
    I used to be a prosecutor in the Army Judge Advocate 
General (JAG) Corps, so unfortunately I had a lot of these 
cases. And I was also a professor at West Point. And that was 
another thing, when sex assaults happened at our military 
academies, and because a lot of times it involves underaged 
drinking, and, you know, whether or not you should prosecute 
for the underlying offense, or potential underlying offense, 
there.
    I want to focus, though, there should be no doubt no 
service member, whether male or female, should ever be a victim 
of a sexual assault or harassment. And we should all agree that 
it is important not only to set up the programs to prevent such 
incidents from occurring but also to set up effective systems 
for helping victims and prosecuting offenders after the fact. 
And I do appreciate all of your efforts on that.
    One issue, though, that concerns me that I don't think was 
addressed: Under the current don't-ask, don't-tell policy right 
now in the military, isn't there a possibility that a 
homosexual service member who was assaulted or harassed might 
be afraid to come forward and file a report for fear that he or 
she would be discharged? Is there a concern that many same-sex 
sexual assaults go unreported?
    Kind of like my analogy to what happened in the military 
academy with underaged drinking, but in a broader scheme in our 
services with don't-ask, don't-tell. And I would appreciate if 
the panel could address that.
    Whoever wants to go first.
    Ms. Collins. Yes, sir. For the Army, we are not aware of 
any data indicating that the don't-ask, don't-tell policy is--
that, under the policy, there are any individuals who are not 
coming forward that have been assaulted.
    I will say that we do receive assaults of male victims 
within the Army, and we encourage those, as we do with our 
female victims. We want to encourage our propensity to report 
across the services for all victims. We know this is the most 
underreported crime in the Nation, and the data tells us it is 
more underreported by male victims than female victims.
    So, again, we are trying to build that trust factor within 
the military so all victims of sexual assault come forward and 
report the crime, so we can not only give the victim care, 
which is paramount, but also pursue the offender with 
prosecution.
    Mr. Murphy. Ms. Collins, do you have any anecdotal stories 
you can share on that issue though in the Army? Or, nothing?
    Ms. Collins. No, sir. I don't get individual case data. I 
get roll-up data but not individual case data.
    Mr. Murphy. How about any thought of immunity if it is a 
same-sex type of thing or, I mean, even if it is under-age 
drinking in the military? You know, in Pennsylvania, the 
drinking age is 21. If they are at Carlisle Barracks or 
anywhere else in Pennsylvania, you know, some type of immunity 
under the Uniform Code of Military Justice (UCMJ), or is there 
any thought process to that?
    Ms. Collins. We do have within our policy, sir, it does 
speak to commanders giving first consideration of delaying any 
kind of collateral misconduct charges against a potential 
victim to encourage them to come forward and report the crime 
and for commanders to look at that very strongly. Because we 
are educating commanders across the board that it is paramount 
that we do have victims come forward, and they need to do so 
without the fear of the collateral misconduct charge, 
potentially.
    Mr. Murphy. Thanks, Ms. Collins.
    Anyone else like to address that? Ms. Robertson.
    Ms. Robertson. Thank you, sir.
    We also have male victims, and we have not seen a time that 
the don't-ask, don't-tell policy is a problem for them coming 
forward. We respond to victims, whether male or female. I agree 
with what Ms. Collins said, that it is probably more 
underreported for males. But we have had male victims in the 
past and continue to do so, and provide them the same level of 
care and services.
    We also address collateral misconduct. It has been our Navy 
policy since 1996, encourage commanders to provide the 
responsive care to victims and look at the issues with alcohol 
at a later time.
    We also, as you probably know, have the restricted 
reporting option for all the services, which allows a victim to 
come forward without reporting it to command or investigation. 
And some of those may probably, and do, involve alcohol. But we 
want to make it a safe place for victims to come forward and 
get the care they need, as well as be able to change to 
unrestricted so we can investigate and prosecute and look at 
offender accountability.
    Mr. Murphy. Can I just--that restricted reporting, would 
that just be for, like, an underlying offense, such as underage 
drinking or some other misconduct, would that also apply to 
potential violations of don't-ask, don't-tell policy, that 
restricted reporting, so it wouldn't go through the chain of 
command, so it wouldn't be a Chapter 15?
    Ms. Robertson. Sir, we don't look at it as the don't-ask, 
don't-tell policy. We look at it--we are a victim-based 
program. So when a victim comes forward, we accept their report 
of sexual assault or sexual misconduct, and we provide them 
services, an array of services--medical, counseling, advocacy--
and we don't get into the specifics of what happened in the 
incident. We really try very hard to just respond to the 
victim, make sure they have the care that they need, and then 
if they are willing to have an unrestricted report, that it is 
investigated and taken to the level it needs to go to.
    Mrs. Davis. Thank you very much.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair. And thank you for 
having this series of hearings.
    As you know, I have been pretty active in this whole issue 
of domestic violence, sexual harassment, and sexual assault in 
the military. And, you know, I want to go back to the three 
things I think that we do on this committee in trying to change 
this.
    The first is to change the culture, which, of course, is 
the most difficult to do.
    The second would be that the laws are effective when we go 
to prosecute the people, not only as a deterrence but to 
actually take care of some of these people who are doing this. 
And I know that we did that when we changed the UCMJ a couple 
of years ago, and it has now been implemented. And many of the 
prosecutors at the level that Mr. Murphy was talking about say 
that it is working.
    And, of course, the third is the response; how do we treat 
the victims and what do we do for them?
    I want to go back to one of the questions that was asked 
about surveys or asking this whole issue about should women 
even be in the military. And it is my understanding, at the 
academies in particular, that we were trying to do a sexual 
assault sort of survey every single year at the academy, and 
that was sort of pushed back to maybe once every two years 
because the comment from most of the cadets at the academies 
were that we were asking way too many times, way too many 
questions about sexual harassment and sexual assault and all of 
this.
    So my question would be, within the academies, do you know 
if in all of the surveys that we have our cadets do, which tend 
to be between three and four a year, if the questions about 
``do you believe that women should be in the academy or not'' 
are still on those surveys? Is that question not being asked?
    And then what type of surveys, if any, with respect to 
this, do we take within the active forces, at least even here 
in the continental United States? Does anybody have any 
knowledge of that?
    Mr. Bruneau. Thank you, Congresswoman Sanchez.
    The Marine Corps's Equal Opportunity Office within the 
Manpower Division conducts a survey, normally biennially, on 
the climate--command climate assessment. And, at our request 
back in 2005, with the advent of restricted reporting--we must 
remember that this is a relatively young program, and 
developing all of the pieces and the mechanics that go into its 
success takes a little bit of time. And then to measure 
effectiveness, you have to be able to wait for some results.
    So we asked them in 2005 to include specific questions in 
their survey dealing with sexual assault. The survey itself is 
more focused towards sexual harassment.
    Ms. Sanchez. And I understand that, because I have actually 
gone through the surveys, and I have spent a lot of time on 
this issue. But my question is the very basic question that was 
asked by one of my colleagues: Do women belong in the military? 
I mean, are we asking that question?
    Because if we want a culture change, it begins with ``women 
belong in the military.'' And at the time, I think it was with 
the Air Force Academy, we asked that question, and we found 
that almost a third of the male cadets said, ``Hell no, women 
don't belong here.''
    So my question is, are we asking that? Do we continue to 
ask that to see if even the very basic issue of should women be 
in the military--because that, I think, leads into diminishing 
and less respect for the woman, whether she is at an academy or 
whether she is in the services.
    Mr. Bruneau. I am sorry, ma'am, then I misunderstood the 
question. The Marine Corps does not have a service academy. I 
wouldn't be qualified, really, to respond to that. So I would 
have to defer to my sister services.
    Ms. Sanchez. Anybody have the answer----
    Ms. Bradley. I will respond to that.
    Ms. Sanchez [continuing]. To that? And if you don't, then 
we need to talk to somebody to see if it is happening.
    Ms. Bradley. I am reasonably sure that the Air Force 
Academy does still have those attitude questions on their 
surveys. And in the classes on character and the numerous 
classes that they now receive dealing with sexual assault, 
those very issues are addressed. The basic attitude toward an 
individual, respect, behaviors that we have, have to be 
addressed in order for this to go away. They are addressing it, 
ma'am.
    Ms. Sanchez. Do you have any comments, Ms. Collins?
    Ms. Collins. Ma'am, I am not aware that those questions are 
currently in the surveys at the academy. I would be certainly 
happy to take that back and ask that question. That would 
probably come under our Equal Opportunity Office at the academy 
itself, and I would certainly work that coordination to find 
out those answers.
    Ms. Sanchez. Great. I would appreciate that.
    And then, this is with respect to the report that was done 
on the Coast Guard, in particular. The Government 
Accountability Office (GAO) came back with the report that some 
commanders actually were resistant to advertising programs or 
options for reporting sexual assault in barracks and work 
areas, et cetera.
    Within your individual services, how often do you find a 
commander who doesn't understand how important this issue is 
and actually pushes back on training programs, advertising, 
noticing, bringing up the issue, et cetera? Can you speak to 
that, any of you?
    Ms. Robertson. Congresswoman Sanchez, thank you for that 
question.
    Navy senior leadership takes it very seriously, the sexual 
assault program and the reporting options, as well as domestic 
violence. We have done massive marketing. Our sexual assault 
response coordinators are putting up fliers all the time.
    The GAO report did talk about one location where they were 
taken down. We did some investigation to find out what is going 
on. It happened to be, what we call, Public-Private Venture 
(PPV) housing, the type of housing. There are certain places 
that posters need to be hung up. So we want to make sure that 
the word is out, that the posters are up, that the information 
is out throughout the commands.
    We took all the GAO recommendations very seriously. And the 
restricted reporting options from the top down, from senior 
leadership, they do know about it. I personally briefed the 
senior shore station leaders, and we spend most of our 
conversation--I have 30 minutes, and it usually goes to an 
hour--about the reporting options, providing response to 
victims in our program, and making sure that there are messages 
from the leadership from the top down in every location.
    Mr. Bruneau. And, ma'am, in the Marine Corps, the 
commandant and our senior leadership and, indeed, all the 
leadership in the Marine Corps takes this subject very 
seriously. And the commandant has directed the inspector 
general of the Marine Corps to include assessment of compliance 
with our policies as part of their unit and command 
inspections.
    I personally have been involved in 18 of those major 
inspections. And at each one of those thus far, they have been 
found to be mission capable. And I have not run into one yet 
where I have experienced any type of pushback from a commander. 
Those inspections include an interview, a personal interview 
between myself and the commander.
    So I have not seen that. I have not seen any of those units 
within the Marine Corps that have been inspected yet that have 
failed to comply with our policies.
    Ms. Bradley. Ma'am, I think we all have to realize that 
this is continuing education. We knew so little when we went 
into this about how complex this is. Restricted reporting is 
brand-new to our commanders. They are held responsible for what 
they know and what they don't know.
    So, to get resistance from a commander about restricted 
reporting might be a very common thing, because they want to 
know you are going to hold them responsible for prosecuting 
whoever has done this. So they want to know that.
    I would say that would be the only question we get 
sometimes from commanders, is, you know, is this restricted 
reporting really helping me? And the answer is: Because then 
the people are getting help. Our senior leadership, I watched 
General Schwartz look every vice wing commander in the Air 
Force in the eye in late December and say, ``You better get 
it.'' And he said it in very strong terms.
    We have folks who go to our squadron commander school, to 
our group commander school, and the message is there. I feel, 
on the whole, our commanders are getting it and they are 
supporting it. And when I listen to them talk, I am thrilled 
about it.
    But we are going to keep continuing to educate at all 
levels.
    Ms. Sanchez. How about Ms. Collins?
    Ms. Collins. Yes, ma'am. And for the Army, this has 
obviously been in our schoolhouse for a long time now. We have 
been training our commanders, and they have been implementing 
the program, and our IG has done an inspection on our programs 
as well, in addition to the GAO and other reviews we have had.
    I am not aware of any commander pushing back. I will say 
that, in our summit in September 2008, when we launched our new 
prevention initiatives in our first phase of committed army 
leadership, the Secretary and the Chief were very adamant about 
their expectations for commanders in this area. Each of the 
commanders did go back and immediately start implementing their 
command prevention programs.
    And the Secretary and the Chief personally went out to many 
senior-leader training forums this past fall to reinforce that 
message, as they trained all the senior leaders across the 
Army. And we have also done a midpoint review assessment up to 
the Secretary in January of where they are in implementing that 
first phase, and we will do a final review input to the 
Secretary as well.
    Ms. Sanchez. Thank you for your indulgence, Madam Chair.
    And thank you for being before us.
    Mrs. Davis. I want to thank all of you for being here.
    I think there are still many questions that we have. We 
probably didn't focus on the exact, you know, changes in the 
program as much as we might have liked. Obviously, time makes 
it not possible to do that.
    We do have a number of questions that we would like to 
follow up with, so that you can give us a better idea, for 
example, how you are doing more interactive work, what is 
happening there. I know, in terms of the Navy, I am curious 
about how the ombuds people are really focusing and working 
with you. What role do they have in this? And are there areas 
in which maybe it is not even appropriate for them to be 
involved? I think just down the line there are a number of 
questions.
    But we certainly appreciate your frankness here. I think 
the real test of all of this, of course, is the men and women 
who serve and whether they think that people are getting it and 
whether they think that they are being treated in a way that 
demonstrates that respect. And the idea that this is so 
critical to mission is one that is shared throughout the 
services, that it is important, the way that we treat people 
every day out in the field or whether they are on bases, 
wherever that may be.
    We appreciate your being here. We will have a follow-up 
panel just a few minutes after we come back. And it is 
important to look to outside experts, to have them either 
validate or share where the challenges are perhaps not being 
met in a way that is appropriate. And we are certainly 
interested in hearing from them, as well.
    I hope members can come back. And, if not, we certainly 
will make that testimony available to everybody.
    Thank you very much.
    [Recess.]
    Mrs. Davis. Hello.
    For our second panel today, we have Dr. Kaye Whitley, 
director of the Department of Defense's Sexual Assault 
Prevention and Response Office. The office serves as the 
Department's single point of accountability for all sexual 
assault policy matters and reports to the Under Secretary of 
Defense for Personnel and Readiness.
    Dr. Whitley has previously testified before this 
subcommittee, and we welcome you back.
    Dr. Whitley. Thank you.
    Mrs. Davis. Next is Dr. John Foubert, associate professor 
and program coordinator for the College Student Development 
Program at Oklahoma State University. Dr. Foubert is an expert 
in sexual assault prevention programs, with a great deal of 
experience and research that looks at changing the behaviors of 
men to prevent assaults.
    Welcome. Thank you.
    And, finally, Mr. David Lee, director of prevention 
services for the California Coalition Against Sexual Assault. 
One of his focuses has been on the development of community 
responses to end violence against women, which is relevant to 
our discussions today. In addition, he currently manages 
Prevention Connection, a national online project to advance 
primary prevention of violence against women.
    Thank you all very much for being here.
    Dr. Whitley, could you start? Thank you.

    STATEMENT OF DR. KAYE WHITLEY, DIRECTOR, SEXUAL ASSAULT 
 PREVENTION AND RESPONSE OFFICE (SAPRO), DEPARTMENT OF DEFENSE

    Dr. Whitley. Chairwoman Davis, Ranking Member Wilson, and 
members of the subcommittee, thank you for the opportunity to 
speak with you today about sexual assault prevention in the 
Department of Defense.
    As you observed at the hearing in January, we have a 
devoted group of sexual assault response coordinators and 
victim advocates that work at installations worldwide to care 
for our victims.
    And today you have heard from their dedicated leadership, 
and I want to publicly thank each and every one of them for 
their outstanding service to our military men and women. I am 
fortunate to have their support and expertise, as we continue 
to institutionalize our program.
    I am also honored to share the panel today with two of our 
of Nation's experts on this topic.
    We are proud of the improvements the Department has made in 
our response to sexual assault. However, I think we can all 
agree that it would be better if these crimes never occurred.
    The Department's comprehensive prevention efforts really 
began in the summer of 2007 at a prevention summit in 
partnership with the National Sexual Violence Resource Center. 
We invited over 100 civilian and military experts to help us 
map a course to prevent sexual assault.
    The participants at the summit developed three 
recommendations for a successful prevention strategy: First, 
the Department should implement lasting sexual assault 
prevention measures by using a framework that takes action at 
all levels of military society. Secondly, the Department should 
use a social marketing campaign to link together all of its 
efforts to prevent sexual assault. And lastly, the Department 
should focus on using bystander intervention techniques in its 
prevention efforts.
    The military services used these points to begin 
development of their own prevention programs. However, the 
Department believes that prevention can only occur with an 
organized, comprehensive approach that is based on research. 
So, consequently, during 2008, the Department collaborated once 
again with the Nation's experts to develop our prevention 
strategy.
    Our strategy is built on what is called the ``Spectrum of 
Prevention.'' This nationally recognized framework has been 
used in other prevention campaigns across the country. My 
written testimony details its components. But, in short, the 
``Spectrum of Prevention'' suggests that social harm can only 
be prevented by taking multiple actions at every level of a 
society. The levels of the spectrum range from improving 
individual skills at the lowest level to influencing policy at 
the highest levels.
    A supporting social marketing campaign will debut in April 
2009 for Sexual Assault Awareness Month. Social marketing, as 
you know, uses advertising concepts and techniques to persuade 
people to behave in ways that improve their own personal 
welfare and that of society. The campaign makes it very clear 
that each military member has a moral duty to step up and take 
action to prevent sexual assault.
    This initial campaign is designated to do two things: 
First, it informs our members about the Sexual Assault 
Prevention and Response Program. And second, it demonstrates 
key points in the bystander intervention approach to sexual 
assault prevention. This strategy is a transformative process 
that will require commitment, cooperation, and, quite frankly, 
time and patience. The kind of change we wish to effect is much 
like what we saw with the drunk-driving campaign or racial 
integration in the military.
    As we begin our campaign, we fully expect the number of 
reports of sexual assaults to increase. In fact, that is a goal 
of the Department, to increase the reports of sexual assault. 
As the comprehensive prevention strategy takes hold over the 
years, we look forward to the day that those numbers decrease, 
not because of fear or stigma of reporting, but because sexual 
assault is being systematically prevented.
    I would like to show you two of our public service 
announcements (PSAs) today that were developed by our partners 
from Men Can Stop Rape. Mr. Steve Glaude and Dr. Pat McGann 
have worked very closely with my deputy, Lieutenant Colonel 
Nate Galbreath, who is a clinical psychologist and used those 
skills to pull together our campaign. These are just two of the 
PSAs that we will be using in April.
    [Video played.]
    Dr. Whitley. And there is a second one.
    [Video played.]
    Dr. Whitley. Thank you. That concludes my opening 
statement. Thank you again for this opportunity.
    [The prepared statement of Dr. Whitley can be found in the 
Appendix on page 98.]
    Mrs. Davis. Thank you.
    Dr. Foubert.

   STATEMENT OF DR. JOHN D. FOUBERT, ASSOCIATE PROFESSOR AND 
   PROGRAM COORDINATOR, COLLEGE STUDENT DEVELOPMENT MASTER'S 
               PROGRAM, OKLAHOMA STATE UNIVERSITY

    Dr. Foubert. Thank you, Representative Davis, 
Representative Wilson, and members of the House Armed Services 
Subcommittee on Military Personnel. My name is John Foubert. I 
am an associate professor of college student development at 
Oklahoma State University, here to speak as an expert witness 
on the issue of sexual assault prevention.
    I am an academic researcher and program developer on the 
issue of sexual violence. In 1998, I founded the national 
nonprofit organization One in Four, a 501(c)(3) public 
nonprofit dedicated to ending rape and sexual assault on our 
Nation's college campuses and in the military by using whatever 
methods have been shown most effective by research.
    There are many ways to approach the issue of sexual assault 
in the military. We can ignore it and pretend that it rarely 
happens. Alternatively, we can focus on doing all that we can 
to help survivors recover from the trauma that they have 
experienced.
    This is a more enlightened perspective, but by itself it 
does nothing to address the root of the problem. We can focus 
on prosecuting the heck out of all offenders and lock them up 
forever, and, although I admire the sentiment behind this 
approach, it is woefully inadequate. Survivors of rape rarely 
report what they have experienced for a wide variety of 
reasons, both within and outside the military. And research 
shows that the harshest of prosecutions does nothing to 
convince potential perpetrators to alter their behavior.
    To get something done, you have to go to the root of the 
problem, and you have to fight the battle of prevention. To do 
it best, you must follow where the research leads you. The 
United States Armed Forces can provide all the services to 
survivors imaginable, and they should. You can lock up all of 
the rapists forever, and that would be just. But we will not 
begin to put a dent in the problem of rape in the military 
until there is a decision made to use the best data-driven 
methods available to prevent rape and other forms of sexual 
assault from happening in the first place.
    Until that time, we are simply in an endless cycle of 
consolation and punishment, with no end in sight. And, 
honestly, most of the people who need consoling are not getting 
served because they fear the stigma of being a survivor. And 
the overwhelming majority of those who should be punished 
aren't even getting confronted, because, like elsewhere in our 
society, the last thing most survivors want to do is go through 
a daunting process.
    When you look at the data on sexual assault, a chilling 
statistic repeats itself over and over again: one in four. One 
in four college women have experienced rape or attempted rape 
at some point in their lifetime. This statistic was the initial 
impetus for the founding of the nonprofit organization that 
bears the same name, One in Four.
    However, there is another one-in-four statistic that I want 
you all to hear very clearly. And if there is nothing else that 
you get from me today, please hear this: A study was released 
in 2005 of female U.S. military veterans, both officers and 
enlisted. And it found that over one in four experienced rape 
or attempted rape during their military service. Please also 
hear this: 96 percent of the perpetrators were military 
personnel.
    So when you meet women in the military today, please 
remember that the consequences of us doing nothing at this 
point, the status quo, is that one in four will be raped by 
someone else in our own military. I think that is unacceptable; 
what do you think?
    I hope you think these statistics are alarming, and I hope 
you don't take my word for it on their validity. I brought a 
copy of the study I just referenced with me, and I left it with 
your staff, Mr. Kildee. I hope you will read it for yourself.
    These numbers are why you need to focus on prevention 
programming. Not all approaches to prevention programming are 
created equally. There are a lot of good ideas out there that, 
honestly, do little, if anything, to prevent a single rape. The 
encouraging news is that there is now data to separate the 
merely good ideas from the approaches that are proven to make a 
difference.
    For the last 16 years, a team of researchers has worked to 
design a rape prevention program called ``The Men's Program.'' 
According to the research, ``The Men's Program'' is the only 
program in history where men who see it subsequently commit 
less sexual assault than men who don't. It is the only program 
ever to document behavior change in sexual assault committed by 
young adult men. In controlled studies, those who see ``The 
Men's Program'' commit only about half as much sexual assault 
as those who don't see the program. Those who see the program, 
if they do commit an act of sexual assault, commit an act that 
is much, much less severe than those who don't see the program.
    These are the kinds of research results that make 
professors like me do a little victory dance when we see our 
data charts come off the computer printer.
    The field of rape prevention has experienced major 
breakthroughs recently. And I can't sit before you today and 
say that we can eliminate rape in the military. However, I can 
say with confidence that, with the right research-based and 
proven methods and targeted resources, our military can 
decimate the rate of rape in its midst. It just takes a 
sustained commitment to prevention programming, the resources, 
and the will to get it done.
    The data on rape in the military speaks for itself. The 
data on our ability to prevent it does so as well. I look 
forward to your questions to provide any information possible 
on how we can all work together to create a steep decline in 
rape in the armed services and to see that happen with all due 
speed, because, after all, our women and men in uniform deserve 
nothing less.
    Thank you.
    [The prepared statement of Dr. Foubert can be found in the 
Appendix on page 115.]
    Mrs. Davis. Thank you, Dr. Foubert.
    Mr. Lee.

    STATEMENT OF DAVID S. LEE, MPH, DIRECTOR OF PREVENTION 
SERVICES, CALIFORNIA COALITION AGAINST SEXUAL ASSAULT (CALCASA)

    Mr. Lee. Chairwoman Davis, Ranking Member Wilson, and other 
members of the Subcommittee on Military Personnel, thank you 
for the privilege of providing testimony about the efforts to 
prevent violence in the armed services.
    My name is David Lee, and I have been active in the efforts 
to prevent sexual violence and other forms of violence against 
women over the last 26 years. It is my honor to currently serve 
as the director of prevention services of the California 
Coalition Against Sexual Assault (CALCASA), one of the largest 
and oldest associations of sexual assault programs in the 
Nation.
    While we have always identified addressing the needs of 
those who have been sexually assaulted as necessary, we 
recognize that the problem of sexual assault is not one only of 
individual incidents, but also of a culture which allows sexual 
assault to flourish. And so I was heartened to hear earlier 
each of the services talk about how they will address that 
culture.
    Based on our experience in working in California, CALCASA 
was selected by the Centers for Disease Control and Prevention 
to develop our project, Prevention Connection, which is the 
leading online resource on sexual violence prevention, drawing 
on experiences and knowledge gained by professionals within the 
rape crisis movement, public health practitioners, and 
research.
    Throughout my career, I have been involved in a variety of 
prevention efforts, working to identify the best practices and 
evidence-based strategies. In California, we conducted what 
was, at its time, the largest social marketing campaign to 
prevent sexual violence, the My Strength Campaign, which 
adapted Men Can Stop Rape's programs to meet the populations in 
California and be able to engage young men to speak out and 
stand up against sexual assault.
    I do not need to explain to you all about the epidemic of 
sexual violence. Your hearings have done great service to all 
of us to bring attention to this issue. And we recognize that 
sexual violence in the military is not unlike sexual violence 
in other segments of our society. It reflects not only 
individual's experiences but reflects this culture that I 
talked about that condones sexual violence and, importantly, 
minimizes the responsibility of all members of our society or 
community to take any action to prevent it.
    The military has a unique opportunity to be able to take 
action to change those cultural factors and be able to 
encourage people to be able to speak out and take actions to be 
able to make change.
    What we have seen is that the military has begun to raise 
awareness about sexual assault, establish policies and 
procedures to make services available. Those are essential. 
However, developing services for those who have been abused is 
not sufficient to end sexual violence.
    Data from a variety of research informs sexual violence 
prevention work. Research has identified risk factors for 
victimization and perpetration. What we want to be able to 
focus on is how can we promote the protective factors and be 
able to address the negative social and environmental 
contributors that are important components to a public health 
approach to be able to prevent sexual violence.
    Some sexual violence prevention work seeks to alert 
potential victims to the risks they face from potential 
assault. While there is some value in this risk-reduction 
education, fundamentally it is insufficient to be able to 
prevent actual abuse. Without proper attention to the full 
context of sexual assault, risk-reduction activities may 
inappropriately hold victims of sexual assault responsible for 
not protecting themselves, such as, ``You shouldn't have put 
yourself in that situation.''
    To address sexual violence prevention in a truly 
comprehensive manner, strategies to prevent its initial 
perpetration, known as primary prevention, must have the same 
level of commitment as programs that respond to its 
consequences.
    A promising approach, what we can see from the research, 
for prevention is look at the bystander intervention effort. 
Based on this and other issues, work that has been initially 
done, we have embraced this strategy within sexual violence 
prevention. Instead of approaching people as potential victims 
of sexual assault or potential perpetrators of sexual violence, 
bystander intervention will approach people within a community 
as potential actors who can intervene in situations to the 
environment that may lead to sexual assault and intervene in 
situations that may lead to abuse.
    As this is developed, it is essential, the partnership 
between the military and prevention practitioners, to be able 
to enhance efforts. We have been doing work for over 35 years 
within the sexual violence prevention field. Our initial 
efforts didn't work. We had to learn lessons, and we had to be 
able to refine this. As you are working on developing efforts 
within the Armed Forces, we will recognize that we need to 
learn lessons and adapt that learning curve.
    Over the last several years, the Department of Defense and 
several branches of the military have solicited input from 
CALCASA and other prevention practitioners, and we feel this is 
very important.
    This change requires making shifts in the culture to 
promote a culture where soldiers, sailors, airmen, and Marines 
identify taking action to prevent sexual violence as a core 
concept of being in the military.
    We recognize that sexual violence is a problem throughout 
our society, not only within military services, and I expect 
that armed services can make a difference to address a serious 
problem within its ranks, just as it made racist behavior 
unacceptable within its ranks.
    Mr. Lee. I am heartened to know that there have been 
important steps to address this issue within armed services. I 
am also aware there is much more to do to intervene when 
assault takes place as well as prevent this beforehand. Thank 
you for your attention, and I hope that we can continue to be 
of assistance in making next steps.
    [The prepared statement of Mr. Lee can be found in the 
Appendix on page 123.]
    Mrs. Davis. Thank you very much.
    I know we really appreciate having individuals like 
yourselves who have really looked at this program, not just in 
terms of the military but also in terms of colleges, 
universities and many other groups.
    Dr. Foubert, if I could just start with you because I think 
that what you said is quite dramatic. And we certainly 
appreciate that. Could you, and I will ask Mr. Lee as well, 
assess, a thumbnail assessment of the videos that you saw and 
the general approach that is being taken? And if you feel that 
the data collection that was discussed, and there may be a lot 
of details of that that you are not aware of, but generally 
speaking, are people kind of on the right track? And I ask 
about the videos because, as I watch them as well, and I 
understand that this is just a snippet, this is just a small 
piece of it, but I am just wondering, do those really resonate 
with the men and women who are watching them? And are we using 
our men and women to create those kinds of messages and videos? 
And if not, I think, why not? Aren't they the best ones to do 
that?
    Dr. Foubert. I think there are a couple of questions there.
    To start with, an assessment of the videos. The approach 
that I use to prevention programming is to look specifically at 
the research on what shows works best, not necessarily to what 
I think, well, I think this might work or appeal to my better 
instincts, but to say, what research studies would say that 
this approach works? And so when I compare research studies on 
what tends to work in rape prevention programming to the videos 
that I saw, I see a fairly large disconnect.
    I don't think that the videos, by and large, that we saw 
today, are in line with what is good practice in rape 
prevention programming. I think that the production quality of 
the videos is good. I think of the ones that we saw, the public 
service announcements, the little snippets, show the most 
promise. And I think they show the most promise in the sense 
that those videos can reinforce bystander intervention 
messages. And I think the value of any of those videos could be 
to reinforce other messages that are received within any of the 
branches of the military.
    But I think the videos, and you did mention the fact that 
what we saw was snippets not the whole thing, and so I should 
certainly make it clear, I didn't see the whole thing, but 
there was enough at least in some of them for me to say 
definitively I can think of six studies off the top of my head 
and one case that would say they were diametrically opposed to 
what research shows works best, let alone whether they would 
pass muster with your 19-year-old enlisted man in the Army. So 
I think what the military needs to do is to take a look at, 
here is what the research shows works best in terms of outcomes 
of lowering rape and lowering rape behavior and use that to 
inform prevention approaches. That might include a video; it 
might not. But I think there is a ways to go, at least in terms 
of the information that is included in the videos I saw. 
Although I am glad they are trying.
    Mrs. Davis. Mr. Lee, did you want to comment on those?
    Mr. Lee. Yes. We believe that it is important. And in the 
input that I have given to the Department of Defense and to 
some of the branches, we have talked about the value of a 
social marketing approach, and I appreciate that they are 
taking that. I do also believe though that media itself does 
not change behavior, and there is very little evidence of the 
media itself. The question is, ``What is the context that the 
media is being used in? What are the forms of training, 
education and, more importantly, policies and procedures that 
are in place that will then lead to changes that actually take 
place?''
    The Armed Services actually know how to change culture. 
They change culture all the time in the way that they prepare 
people to be within their community. And they take that. And we 
need to draw on it as lessons. So I am heartened to see the 
appeal to military values that we saw, for example, in the Army 
program that that is a strong way to be able to resonate and be 
able to move forward. The media itself can't create the change, 
but it can reinforce messaging.
    Mrs. Davis. Thank you.
    I just want to ask a little bit more about the root problem 
that you see. And we asked earlier about military culture, and 
obviously, we recruit young men and women who are able to do 
things that a lot of people in our population are not 
comfortable doing, and they are nurtured and educated to do 
that. And yet some of that may go against what we are talking 
about right here. We might call it macho behavior, whatever 
that may be. And yet with the panel earlier we didn't really 
hear that as an obstacle to getting out this message. Could you 
address that?
    Dr. Foubert. The problem in our society that leads to rape? 
There certainly is a problem in our society that leads to rape 
in terms of how we raise men and what behaviors are acceptable. 
And there are somewhere in the neighborhood of a dozen, two 
dozen characteristics of men who are more likely to rape than 
other men. And there is this culture of masculinity, one-
upmanship. Men who are more likely to rape tend to drink more. 
They tend to be more hypermasculine. They tend to have 
characteristics that tend to be more associated with men who go 
into the military.
    So you start with a biased sample, from a researcher's 
perspective, going into the military. So it is not surprising 
that you might have more of an issue with rape in the military 
than your average company, organization, those sorts of thing. 
The biggest problem I see with rape in the military right now 
is the military needs to be using more research-based 
approaches in its approach to rape prevention. There is some 
dabbling with some approaches that have support from one theory 
or another or have been shown to change knowledge, but you 
don't change behavior by changing knowledge, and so I think 
there needs to be more work done in that. I think there is 
significant sincere interest among many people in the military 
in addressing this problem, and I applaud that. And I think 
that there are some really good souls who are trying to do 
their best. I think we need to move forward with research-based 
approaches that have shown positive outcomes. Like I said, 
there have been breakthroughs in rape prevention research just 
in the last few years. We need to start applying those to the 
military because we can do that, do that successfully and start 
addressing this problem.
    Mrs. Davis. Thank you. I appreciate that. And I hope we 
will have a chance to get back to some of those issues.
    Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman.
    And Dr. Whitley, thank you so much for being here. I also 
want to commend the people that you work with in the earlier 
panel, a number of professional people, who obviously are very 
caring, compassionate and competent. As I think of military 
service, to me, it is an extraordinary ability, uplifting 
opportunity for young people to serve through education, 
through meeting very competent and capable and patriotic fellow 
citizens by travel.
    I just got back two weeks ago from visiting with people in 
my home state who are serving in Guam, serving in Korea, 
serving in Okinawa, Japan. I was green with envy. I was so 
happy for them to have opportunities that I didn't know 
existed, and so I am very pleased about military service.
    It was stated earlier that, being in the military, that 
some people join to be a part of a family. And I know that has 
been the experience with us. That it is a family. And it is 
also establishing lifelong friends. And so that goes to the 
point that you made that it is a moral duty to report. That 
would be not consistent with fellow family members.
    As you face the challenges of developing sexual assault 
prevention policies and programs, what are the major challenges 
that you have? Are there gaps in the programs, and what can we 
do to help you address the gaps?
    Dr. Whitley. Thank you for that question, Mr. Wilson.
    First, it is a monumental task to begin with, because we 
are talking about more than two million people that are 
stationed all around the world. And there is really no step-by-
step guide for us to follow. I don't think there is anyone that 
has ever done this on the scale that we are attempting to do 
it.
    As far as the gaps, I think Dr. Foubert just hit on the 
main gap, is that what we had done to date did not 
necessarily--it was not necessarily based on research. Some of 
the videos that the service showed today, they were developed 
probably in the last few years because they have been in place 
for a while. The prevention strategy that we have just 
completed and presented to our leadership is based on research. 
And the two PSAs that Dr. Foubert said were getting closer to 
what they should be were evidence-based. And so we are moving 
in that direction.
    We have a lot more to do, but we are not shy about reaching 
out and asking for help. We held a second summit, I think I 
have that in my testimony as well, in 2008. And we brought 
together Men Can Stop Rape. We had Dr. Paul Schewe from the 
University of Chicago; Dr. Antonia Abbey from Wayne State; and 
Gail Stern from Catharsis Productions. We also worked with 
CALCASA and the Pennsylvania Coalition Against Rape. And they 
are all ready, willing and able to help us as we implement and 
develop our prevention strategy.
    Mr. Wilson. And I was impressed by the videos. I 
particularly was impressed where it is persons of the same age 
group, peer group, in effect, hopefully speaking to each other 
instead of pontificating by persons of another age group.
    And Dr. Foubert, I am very interested to hear about the 
men's program. And so if you could tell us about this, and also 
has any of this been picked up by the military?
    Dr. Foubert. The men's program is a one-hour workshop 
presented in a peer education format. And it is presented right 
now mostly by college men to other college men. It is in place 
on 40 college campuses across the country. And they define 
rape. They then talk about how to help a sexual assault 
survivor after they show a videotape that graphically describes 
a rape situation, and then they talk about bystander 
intervention.
    The bystander intervention approach, which people have been 
talking about here, was sort of the final thing that was added 
to the program that really led to making the difference. What 
we found through the research is that when men can understand 
what rape might feel like, cast it in the light of, here is how 
you help a friend recover from rape, so we want you to 
understand what rape might feel like, but we are going to teach 
it to you under the guise of it can happen to a friend of 
yours, so we want you to understand what it might feel like, 
and then here is what you can do if you see it in a situation 
where it might actually happen. That combination of factors led 
to the behavior change. And that was 16 years worth of research 
to get to that point. So that is the men's program essentially. 
And your question in a military context, I have worked with two 
other consultants, Gail Stern and Christopher Kilmartin at the 
United States Naval Academy. And we have worked for the last 
three years, not only to implement the men's program at the 
Naval Academy, but to put together 20 programs there over the 
course of the four years that the midshipmen are there. There 
is no institution of higher education in the United States who 
has taken a more comprehensive approach to rape prevention than 
the United States Naval Academy. They are taking this as 
seriously as any college or university in the country. And part 
of what they use is the men's program, but they use many others 
as well. And so they are doing that. I am also talking right 
now to folks in the United States Army about taking the program 
both into Europe and to the United States, and we are in the 
very, very late stages of those discussions.
    Mr. Wilson. Well, thank you very much. And I am glad to 
hear of the military cooperation. I particularly am grateful to 
hear about the Naval Academy. I am the proud father of a 
graduate of the Naval Academy, and so I do have a high regard.
    Thank you very much.
    Dr. Foubert. You are welcome.
    Mrs. Davis. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. I would like to thank the 
witnesses for staying around with us. This is very, very 
important for our military men and women, and for us to 
understand this better. I did have a couple of questions.
    Dr. Foubert, I wanted to start with you. You said that 
there were traits. Are those traits that we can search for and 
identify before we recruit? Can you say what they are?
    Dr. Foubert. You could. But the thing is someone could have 
all of those traits and not be a rapist. Someone could have all 
of those traits and not be someone who is going to commit a 
rape. But yes there are those traits, and you could screen for 
them. In some cases it would be, the screening tool would be 
rather lengthy.
    Ms. Shea-Porter. Well, my question would be, not 
necessarily that we would be saying we are looking for this in 
you, but when they come into the recruiting office, could it be 
absorbed into a larger form where they fill out where you might 
have a couple of flags? And what are those traits? Is that 
something that a recruiter could learn to spot?
    Dr. Foubert. Many of them are complex personality variables 
that would take a sophisticated psychological test to get at. 
And so I don't think you are--and this is not to disparage 
military recruiters, but they would be something like a 
sociopathic personalty disorder, which sociopaths by definition 
are very good at hiding their motives. Someone who drinks and 
gets drunk frequently could be an alcoholic, or they could be 
someone who is also more likely to commit sexual assault. That 
is an easy thing that someone can fake. There are, in the 
research literature, roughly 15, 16 different variables that 
have been found. I can get you all of that information 
certainly. And if that would be of interest to you, I can do 
that.
    [The information referred to can be found in the Appendix 
on page 132.]
    Ms. Shea-Porter. I would appreciate that. After the first 
panel, several of the women were standing there saying, we were 
pretty good identifying just in our lives people that are 
aggressive. And I wonder if that is something that we could 
work more on.
    Dr. Foubert. The one thing that I can say that I have used 
as a screening tool when I interview, I talked before about 
having 40 peer education groups on college campuses throughout 
the country of men who present to other men about rape and 
sexual assault, one of the things I screen for is their past 
history and whether they have committed violence against women. 
One of the questions I asked them is, ``Tell me about the time 
in your life when you came the closest to behavior that met the 
legal definition of sexual assault.'' And one of the first 
things they say is, ``Well, I never raped anybody.'' Okay. 
``Well, think of consent on a continuum of zero to 100, where 
zero is, you have countersigned paperwork with your attorney 
and hers and you have agreed to everything you are going to do 
in advance, which never happens; 100 is rape. Tell me about the 
time when it was a 5 or a 50 or somewhere in between, the one 
time where there was that oops, where you didn't completely 
have complete consent, tell me about that time.'' And so one of 
the things I found there is that men will admit in some cases 
to behavior that actually does meet the legal definition of 
rape, but they don't understand that it does, or they will 
admit to risky behavior. And I can pinpoint with them whether 
or not they are at risk. And that actually has been the most 
effective screening tool that I have used. And certainly if the 
military wanted to use it, they would be free to do so.
    Ms. Shea-Porter. Thank you.
    And the other question was, you talked about the videos, 
and I think I had the same response that maybe some will be 
reached by that, and it was a great effort, but that I 
suspected that most of those who were involved would not really 
see themselves in that. So what about women, videos for women? 
I don't even know if they are doing that. But are you aware of 
a series of videos that women talk to women, which would be 
more part of the prevention part in helping women to recognize 
and identify possible predators before?
    Dr. Foubert. I recently wrote a program for women on how to 
recognize perpetrators, and we do use a video that shows 
perpetrator behavior. And so, yes, there is such a program in 
existence, and I wrote it. It is not geared though towards 
blaming women for being a victim. And you have to be very 
careful about that dynamic. But one of the things the research 
has shown is that women are less likely to experience rape if 
they are able to pick up on cues in men that make the men more 
likely to commit sexual assault. And so one of the things that 
we do in the program is to teach women more of the danger signs 
in men for what makes them more likely to sexually assault 
women. And one of the videos we showed was actually originally 
filmed by Dr. David Lisak, who has been mentioned a couple of 
times at this hearing, where he shows a scene that a man who 
has committed rape acts that out. So we use that video, in 
part, as a training tool for women to understand this is what a 
rapist looks like, and we process that in many different ways.
    Ms. Shea-Porter. And Dr. Whitley, I see you nodding. Is 
there a film that you wanted to talk about, a video.
    Dr. Whitley. We use the Lisak training as well in our 
training throughout all the services. It is quite chilling.
    Ms. Shea-Porter. And effective, measurably effective.
    Dr. Whitley. And effective.
    Ms. Shea-Porter. All right. Thank you.
    Mr. Lee, did you want to add?
    Mr. Lee. I would also add that in approaching women, look 
at the bystander approach of being not just men, but also the 
role that women can be able to play in creating an environment 
where sexual assaults are not acceptable and not just putting 
the burden on women to protect themselves, but to look at all 
service members to be able to look at how, including women, on 
how they can be able to do that.
    And from a prevention standpoint, we really want to be able 
to look at the bystander approach and how we can integrate that 
into the work that we are able to do. I am skeptical of a magic 
screening device that can be done on the scale of the military 
recruiting, but I think there are ways that we should also be 
looking at how we can bring people into the military who are 
going to become active bystanders and be able to create the 
values and the behaviors that we are expecting within the armed 
services.
    Ms. Shea-Porter. I will say that having kids that went to 
college, I was amazed at how woefully unaware so many of these 
students were on campus at not recognizing situations, possible 
situations, not recognizing anything. So I think we need to 
also beef that up, too. Thank you.
    Mrs. Davis. Thank you very much. And we are just going to 
have one or two questions. We are going to wrap up in just a 
few minutes.
    One of the things that was mentioned is the research and 
what we know about the fact that many of the women who come 
into sort of services have had prior sexual victimization. Do 
you see that knowledge that we have about that playing itself 
out in some of the work that is being done now? And is that 
something that can be utilized or played down? How do you see 
that so you know that, okay, they get that part of it? How do 
we use that?
    Dr. Foubert. One of the things that we know in the research 
is that women who have been sexually assaulted before are more 
likely than the average woman to be sexually assaulted again. 
And so that is problematic from the perspective of, you are 
more likely to be sexually assaulted again if you have been 
sexually assaulted before. So you are dealing with, in the 
military, a population of women who are, statistically 
speaking, more likely to be sexually assaulted than the average 
woman. So you are not only dealing with a population of men, 
the research shows, coming into at least some branches of the 
military who are more likely to commit sexual assault, you are 
dealing with a population of women who are more likely to be 
sexually assaulted. So you are coming in with a population that 
is--you have a real problem. And so I think what that says is 
you need to take that issue extremely seriously and much more 
seriously than the average organization would, which means you 
need to approach this as something that is just as serious as, 
how do you load a gun? How do you sink in a submarine? How do 
you do all of these things? And give the time to it that it 
needs.
    Mrs. Davis. Thank you.
    Dr. Whitley, could you respond to that some, too? In your 
role, are you provided the tools, the authorization, to really 
push that issue a little bit more with the services as they are 
working on their programs? How often does that come up? How 
great a play is it?
    Dr. Whitley. Well, one of the issues is that the program is 
still

fairly new. And what we are finding as we interact with our 
experts and as we implement pieces of our program and continue 
down this path and have GAO investigations and defense task 
forces and people looking at us a lot, we get a lot of 
recommendations. So it is just growing by leaps and bounds. And 
we are finding we need to do more and more, and we need to do 
it better.
    Mrs. Davis. Can I ask you to just follow up with a capacity 
question in terms of the resources that you have? We have all 
said that this costs the military an awful lot of money to deal 
with this. And are we putting the resources there at the level 
of expertise in your department that is going to actually be 
able to provide the kind of care in this area that we need?
    Dr. Whitley. I think we are moving in that direction. We 
have budgeted out for five years. And we just took a new step 
in terms of looking at exactly where the money goes. My 
leadership asked each of the services to come back and let us 
know how much they spend on victim care, how much they spend on 
administering the program. And they have to break it down by 
program element codes. And we have just recently gotten that 
information, and we are analyzing it. And part of my oversight 
role is to ensure that they are funded.
    But we identify new requirements every day and continue to 
request new resources. I do have full support of my leadership. 
Secretary Gates has come on board as being very interested in 
four areas. And those four areas are the training of 
prosecutors and investigators and commanders and sustaining 
that training, and also we are really looking closely at 
stigma. And we have to get back to him with action plans on 
those areas. So that is going to help having support all the 
way down from the Secretary of Defense (SECDEF).
    Dr. Foubert. Madam Chairwoman, if I may, over time I wonder 
how much money the military could save if they did really 
effective prevention programming, and there were less rapes 
committed, and you had more women who weren't leaving the 
military? How much does it cost when you train a woman to do a 
specialized job and she leaves because she is sexually 
assaulted? How does it affect troop morale? How does it affect 
any number of things? And so if we can have fewer women 
accessing services, how much does that cost?
    Now, in the beginning when you implement a good rape-
prevention programming, reporting usually goes up. And so there 
is the short-term cost going up, but long-term, it should go 
down. So I think there is the short-term investment, but the 
long-term gains can be so cost effective, not to mention the 
fact that it is just the right thing to do.
    Mrs. Davis. Right. Thank you. I couldn't have said it 
better myself.
    I want to thank you all so much for being here. I think 
this has been very helpful. I know we have had discussions 
outside the room as well today. And I certainly appreciate the 
work that you are all doing. I think we all wholeheartedly 
support the men and women in the military. We recognize that we 
give them a very, very difficult job to do, and we want to be 
sure that they are able to progress in an environment that is 
healthy and safe for everyone. Thank you very much.
    [Whereupon, at 1:00 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 6, 2009
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 6, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON

    Ms. Robertson. Sexual Assault Victim Intervention (SAVI) Quick 
Polls were conducted in 2004 and 2005 to determine baseline awareness 
and perceptions of sexual assault in the Navy and of the SAVI program. 
The 2008 SAVI Quick Poll was conducted to update the earlier polls, and 
to provide current information to address recommendations from the GAO 
report released in August 2008.
    The standard Navy Quick Poll methodology developed by the Navy 
Personnel Research Studies and Technology Laboratory (NPRST) was used. 
The 2008 SAVI Quick Poll included questions adapted from the 2004 and 
2005 SAVI Quick Polls; as well as newly added items on awareness of 
restricted and unrestricted reporting of sexual assault (SA). Randomly 
selected Sailors, stratified by officer/enlisted status and gender, 
ensured adequate representation of officer and enlisted men and women. 
Navy messages were sent to commands requesting selected personnel 
complete the poll online at the Quick Poll website within 12 business 
days. A reminder Navy message was sent midway through the fielding 
period. The poll was deployed from 10 to 26 September 2008, and could 
only be accessed once by the selected Navy personnel using correct 
usernames/passwords. The response rate was 33% and the margins of error 
were <plus-minus>4% or less for both enlisted and officers.

Summary

    <bullet>  Compared to the 2004/5 polls, awareness of SAVI program 
and services has increased.

                <all>  Positive trends were found for all groups from 
                2004 to 2008 among both junior and senior personnel.

    <bullet>  The percentages reporting both SA-related training 
attendance and having attended SAVI training in the year prior also 
increased:

                <all>  Over 90% of enlisted personnel and over 80% of 
                officers attended SA training in the prior year.

                <all>  All groups reported that the training increased 
                their awareness of SA-related issues.

    <bullet>  Awareness of the Victims and Witness Assistance Program 
(VWAP) declined from 2005 to 2008 (68% to 48% for officer women; 64% to 
55% for enlisted women). A similar pattern was found regarding 
awareness of VWAP for officer and enlisted men. For most groups, 
awareness of other programs to assist victims of sexual assault, e.g., 
the SAVI program and the Civilian Rape Crisis Center, increased or 
remained the same from 2005 to 2008.

    <bullet>  Seventy percent or more were aware of restricted and 
unrestricted reporting and one-third or more had seen flyers and 
posters about the reporting options at their commands.

                <all>  Two-thirds or more know to whom to report sexual 
                assault without command knowledge, i.e., how to make a 
                restricted report.

    <bullet>  Over 90% believe SA is a criminal act and know what 
actions are considered SA.

    <bullet>  Eighty percent or more report that SA is not tolerated at 
their command, know what to do if assaulted, and feel free to report 
SA.

    <bullet>  Half of enlisted women and 38% of officer women report 
that SA is a problem in the Navy; under 20% of both groups report that 
SA is occurring at their command.

    <bullet>  More than 75% indicate that they would report SA to Navy 
authorities.

                <all>  Fear of not being believed, embarrassment, and 
                fear of public disclosure were key reasons for not 
                reporting.

Actionable Items

    <bullet>  Incorporate poll results into SAVI training to 
demonstrate positive gains and highlight areas needing improvement.

    <bullet>  Determine reasons for decrease in Victims and Witness 
Assistance Program awareness and, if appropriate, take steps to 
increase awareness.

    <bullet>  Develop Plan of Action to increase awareness of sexual 
assault reporting options and address barriers to reporting sexual 
assault.

    <bullet>  Brief results to the Department of the Navy (DON) Sexual 
Assault Advisory Committee (SAAC), U.S. Navy leadership at all 
echelons, and the DOD Sexual Assault Advisory Council Subcommittee on 
Research.

    <bullet>  Conduct follow-up SAVI Quick Poll in 2010 to monitor 
trends. [See page 13.]

                                 ______
                                 
          RESPONSES TO QUESTIONS SUBMITTED BY MS. SHEA-PORTER
    Ms. Robertson. Since February 2005, Army policy has prohibited the 
enlistment or appointment (officer or enlisted) of any applicant 
previously convicted of a violent sexual offense. Furthermore, 
personnel separated as a result of the convicted sex offender policy 
are ineligible to reenter the Army. Additionally, since January 2008, 
every applicant for enlistment is automatically screened against the 
National Sex Offender Public Registry. Those who are registered are not 
allowed entry and do not make it past the individual recruiter in the 
enlistment process.
    To the best of our knowledge, after reviewing recruiting and 
appointment records, the Army has not accessed anyone who was in 
violation of Army or DOD policy. The Army does the very best it can 
with local/national police and background checks and local/national 
registries, but unfortunately these are not 100% accurate, as not all 
sex offenders are registered as required by their conviction. However, 
while conducting this review, we did identify gaps in our policies, as 
well as discrepancies between Army and DOD policy.
    To resolve these gaps and discrepancies, the Army has convened a 
policy review group under the direction of the Army G-1 and in 
partnership with the FBI and DOJ. The group has identified necessary 
policy and procedure changes and an opportunity to better partner with 
other governmental agencies. The review group will submit its findings, 
recommendations, and timeline to the senior leadership of the Army 
later this summer. [See page 15.]
    Dr. Foubert. The question regarded whether there are traits that 
distinguish men who are more likely to commit sexual assault and/or 
rape. There are indeed many such traits. I caution that an individual 
could have all such traits and still not have committed rape and still 
not commit rape in the future. However, research has identified many 
traits and characteristics in men that are associated with a higher 
risk for committing rape and other forms of sexual assault. The 
enclosed handout identifies these characteristics with citations 
attached to their source in the research.
    As the author of the only sexual assault prevention program shown 
by research to lead to a decline in sexual assault behavior by college-
aged men, I hope that I can maintain an ongoing relationship with your 
committee and the branches of the military as we work together to 
eradicate rape from our midst. Please call on me anytime I can be of 
assistance. [See page 36.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
